<html>
<title> - DOMESTIC VIOLENCE AND CHILD ABUSE IN THE MILITARY</title>
<body><pre>[Senate Hearing 115-860]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-860
 
                   DOMESTIC VIOLENCE AND CHILD ABUSE
                            IN THE MILITARY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           



                 Available via: http://www.govinfo.gov
                 
                 
                              ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-314 PDF           WASHINGTON : 2021 
                  
                 


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman     JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
DAVID PERDUE, Georgia                ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina       ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                  GARY C. PETERS, Michigan
TIM SCOTT, South Carolina            
                                     
                                     
                                     
                   Christian D. Brose, Staff Director
                   Elizabeth L. King, Minority Staff 
                               Director


                       Subcommittee on Personnel

THOM TILLIS, North Carolina,   KIRSTEN E. GILLIBRAND, New York
    Chairman                   CLAIRE McCASKILL, Missouri
JONI ERNST, Iowa               ELIZABETH WARREN, Massachusetts
LINDSEY GRAHAM, South Carolina
BEN SASSE, Nebraska                  
                                     
                                     

                                  (ii)

  


                           C O N T E N T S


                             March 8, 2018

                                                                   Page

Domestic Violence and Child Abuse in the Military................     1

Perry, Adrian....................................................    13
McKinley, Merci..................................................    20
Vega, Iris, Domestic Violence Court Advocate, Doorways for Women     27
  and Families.
Dodge, Dr. Kenneth A., Professor in the Sanford School of Public     31
  Policy, Duke University.
Campbell, Dr. Jacquelyn C., RN, FAAN, Professor, Anna D. Wolf        33
  Chair, Johns Hopkins School of Nursing.
Taft, Dr. Casey T., Professor of Psychiatry, Boston University       36
  School of Medicine.
Barna, Stephanie, Senior Policy Advisor, Under Secretary of          38
  Defense, Personnel and Readiness.

Questions for the Record.........................................    56

                                 (iii)


                   DOMESTIC VIOLENCE AND CHILD ABUSE

                            IN THE MILITARY

                              ----------                              


                        THURSDAY, MARCH 8, 2018

                      United States Senate,
                         Subcommittee on Personnel,
                                Committee on Armed Services
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:18 p.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator Thom 
Tillis (chairman of the subcommittee) presiding.
    Subcommittee Members present: Senators Tillis, Ernst, 
Gillibrand, McCaskill, and Warren.

            OPENING STATEMENT OF SENATOR THOM TILLIS

    Senator Tillis. The hearing will come to order.
    The Senate Armed Services Subcommittee on Personnel meets 
this afternoon to receive testimony on domestic violence and 
child abuse in the military.
    On panel one, we will hear from witnesses about their 
personal experiences of domestic violence and child abuse and 
from a victim advocate: Ms. Adrian Perry, the mother of 
military child abuse survivors; Ms. Merci McKinley, a medically 
retired Army veteran who sustained injuries as a result of 
intimate partner violence; and Ms. Iris Vega, Senior Court 
Advocate, Doorways for Women and Families.
    I will introduce the second panel when we transition to 
their testimony.
    In the United States, domestic violence, including intimate 
partner violence and child abuse, are significant problems that 
cause immense harm in our society. The most current data 
published by the Centers for Disease Control and Prevention, 
the CDC, show that 27 percent of women and 11 percent of men 
have experienced either sexual violence, physical violence, or 
stalking by an intimate partner. The CDC estimates that 
domestic violence victims lose nearly 8 million days of paid 
work and 5.6 million hours of household productivity annually.
    Additionally, the CDC reports that in 2012 State and local 
child protective services received an estimated 3.4 million 
referrals of children being abused or neglected and an 
estimated 1,340 children died from maltreatment during that 
year.
    Clearly, as a Nation we must do more to address the many 
factors, relationship, community, and societal, that may lead 
to domestic violence and child abuse. We must also develop 
evidence-based prevention strategies and implement 
comprehensive support programs to help the victims.
    Let me state, however, that domestic violence and child 
abuse are not just problems in local communities around the 
country. They are also a problem within the military services. 
While the data shows that the military's domestic violence and 
child abuse incidence rates are lower than comparable rates in 
civilian communities, I am deeply disturbed that both intimate 
partners and children die every year at the hands of military 
servicemembers. DOD [Department of Defense] and the Services 
must not rest until they totally eliminate violence and abuse 
of intimate partners and children within their ranks. I will 
assure everyone here today that this Subcommittee will provide 
whatever additional resources DOD and the Services need to 
strengthen its programs of prevention and victim support.
    Finally, I want to thank Ms. Perry and Ms. McKinley 
specifically for their testimonies today. I know it is not easy 
to discuss the painful events of the past, events where either 
you or a family member has suffered as victims of domestic 
violence and child abuse. I thank you for your courage to speak 
to us today to provide us with some important insight into your 
experiences.
    Senator Gillibrand?

           STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND

    Senator Gillibrand. Thank you, Mr. Chairman. I am really 
grateful to you for holding this hearing, and I want to join 
you in welcoming our witnesses who are here to speak with us 
about two very difficult topics, intimate partner violence and 
child abuse in the military.
    To Adrian and Merci, thank you for being here to share with 
us what I can only imagine were very painful experiences for 
you. Your bravery is inspiring.
    In 2005, 5-year-old Talia Williams was killed by her father 
and stepmother. Her father was a soldier stationed in Hawaii. 
This crime happened after months of abuse and after multiple 
reports to military authorities that were never shared with the 
civilian child protective services.
    In the 12 years since Talia's death, it is clear that this 
problem has not gone away. Just last year in the Department of 
Defense's fiscal year 2016 report on child abuse and domestic 
violence, they documented 13,916 reports of suspected incidents 
of child abuse and neglect and 18 child abuse-related 
fatalities. All of the deceased victims were under 5 years old. 
Half of them were under 1 year old.
    The Defense Department's report also documented 15,144 
reported incidents of domestic abuse and 9 intimate partner 
fatalities in fiscal year 2016 alone, and these are just the 
reported incidents.
    We still do not have an accurate estimate of the prevalence 
of child abuse and intimate partner violence in the military 
because there is no prevalence survey like the one we have for 
servicemembers on sexual assault and harassment. We only have 
the reported numbers, and that is not enough. Just as the 
sexual assault prevalence survey helped shine a light on the 
issue, we need to understand the scope of the problem so that 
we can better do our job supporting servicemembers and their 
families. Congress has already made some efforts to solve this 
problem, but it really has not been enough.
    Thanks to advocacy of the Hawaiian delegation, Talia's Law 
was signed into law by President Obama in 2016. It required all 
personnel who are in supervisory positions within the chain of 
command to report suspected child abuse and neglect. This law 
was a good first step, but we need to do much more to prevent 
these crimes from happening in the first place. We need to help 
stop the abuse before it begins and properly address it once it 
happens.
    To address intimate partner violence and child abuse, we 
must start by addressing the unique stressors on our military 
families. The challenges of deployment and reintegration, 
isolation from support networks, and fears that reporting your 
servicemembers for violence may result in the end of his or her 
or career and potentially the loss of income and benefits for 
the family put significant strains on those families. These 
difficult factors make hard decisions about coming forward even 
harder.
    When it comes to intimate partner violence, we must not 
only look at the psychological consequences of abuse but also 
the long-term physical health risks it causes. Approximately 20 
million women experience intimate partner violence-related 
traumatic brain injury in this country every year. One study 
found that 92 percent of women in domestic violence shelters in 
New York State were hit in the head by their partner between 1 
and 20 times, and 50 percent of intimate partner violence 
survivors are strangled at some point in the course of their 
relationship. Yet, survivors of intimate partner violence are 
not routinely screened for strangulation or brain injury in 
emergency rooms, and they often do not themselves realize that 
they have lost consciousness.
    In addition to the health concerns posed by these injuries, 
lack of awareness of their cognitive and behavioral effects, 
such as loss of memory, confusion, or agitation, can impact the 
way a survivor is treated during an investigation. First 
responders and law enforcement personnel who are unaware of 
these consequences may misinterpret these behaviors as lack of 
cooperation or a difficult personality and decline to move 
forward with additional inquiry or intervention.
    The Family Advocacy Program has grown and improved in the 
last several years, and I know hard-working, dedicated 
personnel who care deeply about the prevention of violence. The 
implementation of a more structured criteria for evaluating 
cases and increased, more sophisticated training and education 
of response personnel is encouraging. However, I believe more 
can be done and must be done for our military and their 
families, especially the children who are most vulnerable.
    For too long intimate partner violence and child abuse have 
been characterized as family issues to be kept private. As a 
result, the violence and trauma of abuse has lived in the 
shadows. It is time we shine a light on these experiences.
    I have also received written letters from three separate 
individuals, Captain Levi Fuller, Ms. Jennifer Elmore, and Ms. 
Celina Meadows, who would like to share their experiences, and 
I would like to have these statements included in the record.
    Senator Tillis. Without objection.
    [The information follows:]

                 Prepared letter by Captain Levi Fuller
                                purpose.
    The purpose of this memorandum is to provide my personal story 
regarding how the Army handled my allegations of intimate partner 
violence, and a brief overview of what policies I feel should be 
changed in response.
                              background.
    My name is Captain Levi Fuller. I am a captain on Active Duty with 
the U.S. Army. My branch designation is 27A, Judge Advocate General's 
(JAGs) Corps. I have been an officer in the JAG Corps for almost 4 
years. As a Judge Advocate, I am also a licensed attorney eligible to 
practice in all military trial and appellate courts, the State of 
Texas, and the Eastern District of Texas. Prior to entering the JAG 
Corps, I served in the Army National Guard as an Artilleryman (13B) and 
Infantryman (11B) attaining the rank of sergeant.
    Three years ago I was dating a co-worker who began exhibiting 
abusive and sexually violent behaviors. My attempts to sever the 
relationship resulted in my offender sexually harassing me at work, and 
eventually stalking me. When I didn't reciprocate her feelings she 
began screaming in my office in front of witnesses and my supervisors 
during work hours. After work, my offender began coming to my home and 
would ring my door bell or knock on my door, sometimes for hours. I 
began retreating into my home and only leaving to go to work or places 
where there would be witnesses. At work, I would retreat into my 
office, closing the door until the day was over.
    In May 2015, during a period when my co-worker and I were dating 
off and on, she sexually assaulted me. My offender pulled my pants down 
and tried to perform fellatio on me. When I stopped her, she became 
more aggressive and the harder I pushed back the harder she tried to 
force me to have sex with her. She pulled my pants down around my 
knees, pulled her pants off, and climbed on top of me while I asked her 
to stop and tried to push her off in a way that didn't hurt her. When 
she reached down and grabbed my penis to insert it into her vagina, I 
slapped her and stopped my sexual assault.
    Nine months later, I was given a reprimand for assaulting my 
offender and for lying about being sexually assaulted which is 
permanently filed in my Official Military File. That reprimand will 
prevent me from being promoted, and will be the basis for my 
resignation from the Army this fall.
                   the processes: facts and failures.
U.S. Army Criminal Investigation Command (CID)
    My case was investigated by the supervisory special agent for all 
special victim's crimes for an Army division. In that position, she 
oversaw all sex crimes on her installation and had access to all of the 
sexual assault training available. Despite this, there were several 
missteps in the investigation. Initially, I only reported that I was a 
victim of sexual harassment and stalking. The investigator never made 
contact with me to ask me for an interview. When I amended my complaint 
later to include an incident of sexual assault, she almost immediately 
accused me of fabricating my allegations, and made it clear that she 
did not plan on investigating my sexual assault allegations.
    Five days after I made my sexual assault allegation, the agent 
contacted my special victim's counsel (SVC) to tell them that I would 
be investigated for assault for the act of defending myself against my 
offender. Normally the decision to treat a victim as a suspect for 
false allegations is a well-thought out process that's carefully 
weighed against the evidence in coordination with experienced 
prosecutors. The CID agent did it in less than a week.
    During other interviews, the agent made statements to witnesses 
indicating she didn't believe men could be victims of sexual assault. 
To two witnesses she said, ``I didn't know a male could be sexually 
assaulted by a female,'' and to another, ``Oh, I thought we had 
something on [me],'' while telling another witness she was trying to 
protect the credibility of my offender. She wrote in the margins of my 
statement to CID, ``These people couldn't have witnessed this event.''
    Over the course of her investigation, the agent accused me of eight 
separate offenses stemming from my allegations; including assault, 
dereliction of duty, misprision of a serious offense, obstruction of 
justice, false swearing, and conduct unbecoming an officer. The first 
and only time that I ever met the CID agent investigating my sexual 
assault allegations was when she was reading me my rights. Yet, the 
Army CID Inspector General investigated and recommended no action on 
the basis that the CID Agent did not commit any misconduct in the way 
she handled my case.
The Army Judge Advocate General's Corps
    The Judge Advocate overseeing my case concurred that I had 
fabricated my sexual assault allegations. The Special Victim's 
Prosecutor (SVP) for the installation was not actively working on cases 
when my case was being investigated. Instead of requesting another 
Special Victim's Prosecutor, the Staff Judge Advocate (SJA) gave my 
case to the Chief of Justice (COJ) to review.
    In the Army, the Chief of Justice essentially serves in the same 
capacity as a District Attorney in the civilian sector and oversees all 
criminal actions for an installation consisting of approximately 30,000 
soldiers. However, the COJ that reviewed my case had never stepped 
inside of a court-room or tried a case in criminal, civil, or 
otherwise. He had been a licensed attorney for 5 years, but only had 2 
years of practice experience. He was selected as the Chief of Justice 
for a division in order for him to attain experience with military 
justice.
    The agent, COJ, and the Staff Judge Advocate, refused to provide my 
SVC with any victim updates or even speak to us about the investigation 
or my case. The SJA told another JAG that my SVC had not been helpful 
by asking for victim updates and had burned many bridges by threatening 
to call the Inspector General (IG) unless the agent provided them. The 
Special Agent in Charge (SAC), the agent's supervisor, told my SVC that 
if he went to IG, the SAC would ruin his career.
    I told CID that I slapped my offender because she was straddling 
me, hysterical, and attempting to insert my penis into her vagina, and 
a month later I told the Colorado Springs Police Department that I 
slapped her because when she grabbed my penis, it hurt me. The COJ 
opined that this was a ``significant inconsistency that negated the 
veracity of [my] allegations.'' To this day, the Colorado Springs 
police officer is the only person who's ever asked if it hurt when she 
grabbed my penis.
    The COJ later told the Department of Defense Inspector General that 
the reason he didn't believe my allegations was because 
``counterintuitive behavior does not explain why he would continue to 
contact his offender after the alleged sexual assault.'' If they had 
asked me, I would have told them how hard I tried to pretend like 
nothing happened because I was afraid of what making a sexual assault 
allegation would do to my reputation, career, and my office.
    Seven months after I made my allegations, I was informed that my 
sexual assault allegations were [found] unfounded and that I would be 
punished for assaulting my offender and fabricating allegations. The 
COJ and SJA stated that if I resigned my commission immediately and 
left the Army they would not recommend a reprimand. When I refused, I 
was given a reprimand and they recommended to my commander that I be 
eliminated from service.
    All of my other allegations were ignored or unfounded. The COJ did 
not provide opines for multiple other uncontroverted instances of 
sexual harassment, or on the multiple violations of the military 
protective order issued against my offender.
    The COJ concluded that my offender didn't commit assault for 
another instance where she sat on my lap and touched me after I asked 
her to leave, after he applied the wrong legal standard for assault. He 
opined that I had committed conduct unbecoming of an officer because he 
believed I only informed CID of my offender's other victims to 
discredit her. To my knowledge, the COJ never reached out to the Trial 
Counsel Assistance Program (TCAP) or anyone else for guidance.
    Because the COJ chose to punish me administratively, the only 
opportunity I was given to present evidence on my behalf was to submit 
a binder with statements of support. I provided statements from over 20 
people who specialize in special victim's cases all stating 
unequivocally that I was a victim of sexual assault. It didn't matter. 
My commanding general told investigators that even though he went 
through my packet he deferred to the advice of the less experienced 
Judge Advocates.
    The COJ is currently part of the team that travels to explain the 
Military Justice Act of 2016 to Judge Advocates across the globe.
My Offender's Chain of Command
    My offender's Chain of Command actively prevented me from being 
protected from my offender. A military protective order (MPO) was put 
in place on 6 August to protect me from my offender. I was not provided 
a copy of it until 11 days later. Although the MPO stated my offender 
had to be at least 500 feet away from me, I was ordered to go to 
physical training (PT) with her every morning, and her office was moved 
to another room on the same floor of the same single hallway building. 
My offender would use the opportunity to stand right outside of my 
office multiple times during the day.
    After I learned of the MPO, my Deputy Staff Judge Advocate (DSJA) 
told me on multiple occasions that he wanted to amend it to allow my 
offender to continue to work in the same building and do PT with me. 
The MPO was not enforced at all the entire month of August. It took my 
commander and SVC contacting my SJA directly to remove my offender from 
my building.
    After she was removed, my offender began running around my brigade 
building during times where she was supposed to be at work. When I 
reported her to her commander for violating the MPO, my supervisor was 
admonished by our DSJA because I ``took it outside of the JAG Chain''. 
Two days later she was in the same location, so I reported it to my 
DSJA who refused to report it to her commander.
    After 2 months of the MPO not being enforced, I tried to file for a 
civilian restraining order. My offender's company commander was the 
only person who testified on her behalf. She told the judge that she 
did not feel I was in any danger and the judge dismissed my case. In 
retaliation, my offender left human feces on my door step and wrapped 
toilet paper around my porch banister.
    After more MPO violations, my brigade commander decided to 
intervene and he called a meeting with the Family Advocacy Program 
(FAP) and my offender's commander because FAP concluded that my case 
had a high potential for lethality based on my offender's conduct and 
how it was being handled. During that meeting, my offender's command 
stated that they felt FAP was ``overstepping their clinical role.''
    My offender's commander offered to meet with me to alleviate any of 
my concerns. During that meeting, I told him that I felt the only way 
to stop the violations was to punish my offender. He stated he didn't 
believe there had been any violations of the MPO, and threatened to 
tell my command (to include the division commander) that I was 
disrespectful to him. After 5 minutes of him yelling at me, the FAP 
representative in the room canceled the meeting and escorted him from 
the building.
                        policy recommendations.
    Greater Quality Control for Army CID. For military law enforcement 
investigations, I recommend an Article III law enforcement organization 
(LEO) tasked with providing quality control for how military LEO's 
conduct investigations, or at a minimum a non-military task force to 
review any sexual assault allegation that is unfounded by CID. The CID 
IG recommended no action against the CID agent for my case on the basis 
that she did not commit any misconduct. While that point can be 
contended, committing a crime or violating a regulation should not be 
the standard by which investigator's actions are judged. If CID is 
incapable of investigating the judgement decisions made by their 
agents, then outside organizations need to be tasked.
    Greater Quality Control for Army Judge Advocates. For the Judge 
Advocate General's Corps, there should be a requirement that you cannot 
supervise an area of law without a skill identifier or some sort of 
designator indicating proficiency or at least experience in that field. 
In the 4 years I have been in the JAG Corps, I know of at least three 
times there has been a Chief of Justice without any military justice 
experience and last year it happened in 2 of the 4 divisions in III 
Corps. It is unfathomable that the Army Chief of Staff can say the Army 
is doing its best to prosecute sex crimes, when military justice for 
multiple divisions is being handled by attorneys with no trial 
experience.
    More Legal Oversight. When I went to the Department of Defense 
Inspector General's Office with my complaint, I was told that they 
would not be able to do anything regarding my criminal investigation 
because they couldn't review criminal allegations. In my investigative 
packet there is a statement from my accused stating that she sexually 
assaulted me, and another statement from a witness that she admitted to 
it. Despite these damning statements, there is no one at all that I can 
present this evidence to. There is no process for legal review for 
contested allegations in the U.S. Army.
    Less Training, More Accountability. There was not a single person 
involved in my case who had not received several hours of training on 
how to react to a sexual assault offense. The only way to get results 
out of the military is through accountability. Army personnel will 
ignore training unless there is the risk of punishment for failure to 
adhere to basic standards. Until someone is relieved there will not be 
any change moving forward.
    More Authority for Treating Clinicians. The FAP in the Army is made 
up of competent professionals who are all experienced with domestic 
violence. In my case, FAP told a commander that I was at a high risk 
and he told them he did not care. The FAP is commander-driven and if 
there are no repercussions for when a commander wants to ignore it then 
it's not worth having around.
    Greater Investigative Oversight. Everything contained in this 
memorandum has been investigated by the Department of Defense. None of 
it has been refuted and the DOD IG has concluded that everything above 
is acceptable. It is clear that the military will never be able to fix 
the problem of intimate partner violence or sexual assault without a 
substantial overhaul of the DOD IG.
                             the aftermath.
    The only reason I'm still here today is because of my wife. Between 
the time I enlisted in 2004, to when I was sexually assaulted in 2015, 
all I wanted was to be an Army officer. When I was told I was being 
punished for doing the right thing, I went home and thought about 
putting a gun barrel in my mouth and pulling the trigger. The pain of 
having to hide from someone for almost a year, only to be betrayed by 
an organization I had served more than a decade was the worst pain I've 
ever felt.
    If you're reading this, I hope you never have to go through what 
I've gone through. I spent an entire year of my life hiding in my home, 
afraid to leave because I couldn't stop someone from touching me. Years 
later, I still have nightmares about my offender coming into my office 
and touching me, and there not being anything I could do about it. I've 
gone to treatment to deal with the memories of it all and it just makes 
me angrier. I've lost faith in the Army and the people around me.
    I wish I were in your shoes right now. I would find a case like 
mine (and I guarantee there are several) and I would go to the 
commanders and I would fire all of them. Then I would go to the next 
service, and do it all over again. I would go to agents who treated 
victims the way I was treated and fire them. I would go to JAGs in 
charge of military justice who weren't doing their jobs and I would 
fire them. I would get rid of everyone who didn't take this problem 
seriously until the only people left were the ones that did.

                 Prepared letter by Ms. Jennifer Elmore
    Chairman Tillis, Ranking Member Gillibrand and Members of the 
Subcommittee, thank you for your leadership in conducting the hearing 
on domestic violence and child abuse in the military, as well as 
ongoing dialogue to address this critical matter. While unable to offer 
my testimony at the hearing held on March 8, 2018, I was personally in 
attendance and impacted by the testimony's that were presented. It is 
my desire to have this written statement included in the official 
record on the matter.
                 understanding the committee objectives
    It is my understanding that the goals of this Subcommittee are: 1) 
to initiate ongoing dialogue that seeks to assess the issue of intimate 
partner and child abuse in the military services, while understanding 
that real change can only come from committed follow through; 2) 
develop concrete methods to determine the scope, scale and key 
contributors to the epidemic; and 3) implement plans for comprehensive 
prevention and support for survivors.
    That you are interested in learning from victims, as well as 
professionals with expertise in the resulting trauma, causes of abuse, 
the effectiveness of programs meant to serve victims, and creative 
ideas to gather meaningful data, is encouraging. The task at hand is 
complex and challenging, but it is most certainly one that our Nation 
and our military Services must address. I am grateful that this 
Subcommittee has chosen to begin the process.
                                my story
    Born to a barely wed and newly graduated West Point cadet in 1971, 
my mother once wrote that my father's ``belittling'' of me began the 
``moment that I drew my first breath.'' It wasn't too many years later, 
at the age of 3, that my father led me to the dark abandoned basement 
of my grandmother's apartment in upstate New York, sat me on a washing 
machine and masturbated, while touching me. Year after year, until I 
turned 18, the level of physical, emotional, and sexual violence 
escalated, as did his rank. Nighttime visits to my bedroom and, 
multiple acts of rape were, for me, normal. As he would describe later, 
``The only thing that I could have done worse would have been to murder 
you.''
    Among the vivid memories of abuse that haunt me are:
    <bullet>  vicious beatings that, on occasion, involved beds being 
lifted and dropped on my body as punishment for my room not ``passing 
inspection'';
    <bullet>  physical ``punishments'' that were so severe that my 
mother pleaded with him to stop before he killed me;
    <bullet>  countless sexual violations;
    <bullet>  withholding of food, then providing it as a precursor to 
his sexual assaults;
    <bullet>  tying my hands behind my back, covering them in hot sauce 
and seating me on the floor next to his chair for hours, to teach me 
not to put my hands in my mouth;
    <bullet>  cruel degradation, humiliation, and isolation daily.
    My first night of rest came well into my freshman year in college, 
when I could finally begin to believe that he was no longer able to 
sneak into my room or have easy access to me on a regular basis. I may 
have escaped to a safe bed, but the terror and memories remained. I 
held close the lessons I had learned and know that to remain silent was 
to survive. Here are some of those lessons:
    <bullet>  With the terror that my father embedded in me through 
years of ``training,'' I knew there would be punishment of some kind 
for speaking out. Even if I could find the courage to speak, what would 
I say? Who would have been able to hear, hold, and then act in response 
to the level of darkness I would describe? Who would even believe a 
child's word against that of a military leader?
    <bullet>  Many nights, as I heard him approaching my room, I would 
tell myself that ``If my Mother only knew what he was doing, she would 
leave him, or she would kill him.'' But I had already learned that 
speaking would devastate my mother and destroy my family. He had long 
since ``trained'' me to believe I was responsible for his actions, 
holding his secret, and thereby the fate of my family. Learning later 
that my mother was well-aware of what was taking place and, at some 
level, made the decision to sacrifice her daughter for the sake of 
position, power and prestige, only reinforced the futility of speaking.
    <bullet>  Constant isolation is a product of the frequent changes 
in tour of duty and relocations. By the time I left for college, I had 
lived in 11 different locations across the country and the world. There 
was never enough time to establish meaningful friendships or 
connections that might have been a means of rescue. In addition, my 
parents purposed fully kept me separated from friends, school mates and 
even other parents. I couldn't trust anyone in my parent's sphere of 
influence and never had a chance to establish the kind of trust 
necessary to feel safe sharing what was happening to me with anyone 
outside their sphere. Finally, having begun my ``training'' by the time 
I was three, my father ensured that no one would have the opportunity 
to see changes in my behavior that would have offered some indication 
of what was occurring inside our home.
    <bullet>  Frequently I witnessed my father's alcoholism and his 
violence against my mother and brother. On occasion, these events were 
brought to the attention of others who were in the position to act. 
Instead, these events were hidden, ignored, and denied. Given that my 
secret was much bigger and darker, I watched and understood clearly 
that I was utterly alone, no help would come, to speak out was an 
exercise in futility, and my situation was hopeless.
    <bullet>  A few years ago, in a letter to me, my mother wrote that 
one of her greatest sources of pride was how her children had 
maintained the ``honor'' of the family and not broken silence about 
what had taken place in our home. She and my father are fiercely 
protective of the reputation that comes from his illustrious military 
career.
       That career began at the United States Military Academy, where 
he graduated in 1971 and returned for subsequent tours as an 
instructor. He attended the Army Command and General Staff College, the 
National War College, and rose through the ranks for 32 years, 
ultimately attaining the rank of Major General. Immediately preceding 
his retirement in 2005, he served as the Director of Force Development, 
Office of the Deputy Chief of Staff at the Pentagon. For his service, 
he has received the Decorated Legion of Merit, Meritorious Service 
medal, Army Commendation medal and others. He has spoken at the 
funerals of fallen servicemembers on numerous occasions, is held out as 
a military hero and an example of the best the Army has to offer. What 
victim has a voice loud enough to be heard above the ``hero's'' voice 
and the strength necessary to use it?
                              speaking now
    Why speak now? Since coming forward in 2015, many have asked that 
very question, ``Why?'' or ``Why now?'' For those who do not understand 
the impact of abuse as I've experienced it, I suppose I can appreciate 
the nature of the question. Convincing others of the credibility of my 
life experience is not helpful. I live it, know the truth, and 
survived. Mere survival, however is not the purpose of my life, there 
is more.
    There are some very personal reasons why I stand and speak, now. 
First and most simply, I can. It took me 43 years to realize that I 
have the strength to stand up for the young girl who suffered; the 
young girl that no one else saw, no one risked helping or believed was 
worth rescuing. It has not been an easy path to be able to stand, but I 
am here now and well-equipped.
    Second is the legacy that I will one day leave to my own young 
daughters. I am fierce in my desire to not hand them a legacy of lies 
and dark secrets. I want them to know that when integrity, truth and 
unseating evil are at stake, the battle is worth fighting and no price 
too great. I want them to know this is especially true when the battle 
may impact others who, for whatever reason, are not able to fight for 
themselves.
    Finally, by speaking on my own behalf, I wish to reclaim that which 
was savagely ripped from me; my dignity, my truth, my identity free of 
shame. My father made the conscious choice to steal these things for 
his own pleasure and gain. By first-hand experience, I can also say 
that pursuing justice comes at nearly as great a cost as the abuse 
itself. It in many ways reinforces the violence, distorts truth, cares 
little for a victim's dignity and thrives on a shame-based approach to 
degrading the victim in order that the perpetrator be defended. Daring 
to hope for justice is as terrifying as the hope that the footsteps 
will not stop at your bedroom door. For too many, the cost is too high.
    My deepest desire is that a sea change be upon us and that our 
commitment to prevent, see, care for victims, and prosecute the 
perpetrators of violence against children and intimate partners within 
the military Services is engaged with the same fervor with which this 
great Nation takes on the most serious threats to its citizens.
                            creating change
    A climate of trust must be created for any real change to occur and 
the programs put into place to succeed. I suggest the following ideas 
and steps as a means of fostering that trust:
    <bullet>  Understanding that Intimate Partner and Child Abuse are 
Blind to Class, Rank, Race, Sex, Religion, and Social Status. The abuse 
I suffered occurred at every rank, beginning when my father was a 2nd 
lieutenant. My father retired as a Major general. Abuse is happening 
across all ranks of the military Services and should be addressed 
without bias. The statistics that attempt to capture the prevalence of 
abuse stem from reported cases only. What we can be certain of is that 
these statistics represent silence of victims. When combined with the 
implied or express authority provided by power and rank, victims are 
functionally discouraged from reporting their abuse. Therefore, 
providing a means for victims to speak and trust they won't be re-
abused by the process is critical.
    <bullet>  Assessing the Risk Factors that Make the Military 
Services Fertile Ground for Abuse of Intimate Partners and Children. 
There is a need to acknowledge the enhanced risk environment associated 
with our military Services, identify the risk factors, and develop 
methods to diminish the impact of those risk factors. Among the key 
risk factors are: 1) isolation of military life; 2) protectionism 
within ranks; 3) lack of specialized resources and training in matters 
related to abuse; 4) lack of an independent investigative and legal 
process that recognizes the unique characteristics of a case involving 
abuse.
    <bullet>  Education Regarding the Trauma Resulting from Intimate 
Partner and Child Abuse. It seems easiest to be horrified by and want 
to act in those cases of abuse that result in the death of a child or 
intimate partner. Certainly, those cases are devastating and should 
turn the stomachs of any who hear of them. However, the cases of abuse 
in which the victim does not die are just as costly and important, 
often leaving the victim with a lifetime of devastating challenges. 
Broad education of Family Advocacy Program members, investigators, 
Special Victim Counsel, prosecutors, caregivers, and commanders 
regarding the trauma of sustained abuse would help foster the trust 
that is critical for a victim to feel safe speaking about their 
experience.
    <bullet>  Willingness to See, Hear, Hold the Truth and Act. 
Children are this Nation's most valuable resource and yet our children 
are being sacrificed by a system that cares first about the protection 
of perpetrators and their rights. It is a system that refuses to see 
the dark realities for the victims. A system that, even when the 
darkness is seen, seems unwilling to protect the rights of victims as 
energetically as it does perpetrators. Our Nation and its military 
fight to end human rights violations across the globe. I submit that 
there are human rights violations happening right under our noses, 
within the military Services, that we seem to be afraid to acknowledge 
and address.
                               conclusion
    The closing statements made at last week's hearing by the Honorable 
Senator Tillis indicated that the full resources and capabilities of 
this Subcommittee would be brought to bear in addressing the many 
facets of this matter, such that there would eventually be ``fewer and 
fewer victims, until there are none.'' I thank you and join you in the 
quest for change.

                 Prepared letter by Ms. Celina Meadows
    Thank you for allowing me to contribute to your very important 
discussion here today. Let me introduce myself. I'm a patriot; I love 
the United States of America. I'm from a military family and I have 
deep respect for the U.S. Armed Forces. I am the proud mother of three 
beautiful children. My name is Celina Meadows, and I am the now-
estranged wife of an Active Duty 7th Group Special Forces Weapon 
Sergeant in the U.S. Army. (For the purpose of this letter, I'll refer 
to him as ``John.'') To be honest, this is a new thing for me. Just a 
few months ago I would have kept my name confidential for fear of 
endangering my children. Now I believe I'm better off with a large 
network of people who know my name and would notice if I suddenly fell 
out of sight.
    My children and I suffered terrible physical, verbal, emotional, 
and financial abuse at John's hands over the course of several years. 
When we moved to John's Florida Army base, it was clear that everything 
in the region revolved around his unit, 7GSF.
    During the 7 years preceding his military service, I was the 
household's sole breadwinner. I'd paid the bills, I paid for food and 
family expenses. I paid for the gear John needed to prepare for his 
military career. I sacrificed my own good credit to pay down his 
sizeable debt, a necessary step for him to obtain and keep the 
requisite level of security clearance to be Special Forces.
    Upon John's entrance into the military, he established new ground 
rules. I was not to contact HIM because he needed to focus on keeping 
his 18X contract; he would not allow the children OR me to ``mess this 
up'' for him. Information would be provided on a need-to-know basis. He 
would deposit HIS earnings into a single account at his discretion. I 
remember just being grateful I had separation pay from my last job, 
since John clearly had forgotten my previous substantial contributions. 
In an unsettlingly small period of time, he managed to remove me from 
all our financial accounts, our car insurance, our car, and he took the 
debit and credit cards with him. He left a PayPal card which he 
reluctantly and very sporadically funded. While his absence was a 
relief, he left us isolated, penniless, and without transportation. I 
home schooled the children and was a stay-at-home mom for the duration 
of his deployment, exactly as he instructed.
    After 6 months of his 1st and only deployment, John returned. He'd 
been angry before, and now he was even angrier. He showed off a fist 
full of negative counsels he had received, and he seemed almost proud. 
The reasons for the counsels? Laughing during firefights. Cursing out 
the team captain. Publicly berating his team sergeant.
    He also brought back a collection of personal items he had stolen 
from dead bodies. I learned this from my children and confronted him 
immediately.

    ``Why did our daughter just tell me she was playing with a walkie-
talkie Daddy took off a dead body?''
    ``Not like they need it anymore,'' he answered, mildly irritated at 
the ridiculous question.
    ``Why? Why would you take things off dead bodies? Why would you 
bring them home? Why would you let your children play with them? Why 
would you TELL your children they were playing with dead people's 
things?''
    He stared at me, baffled, and proceeded to explain that the kids 
should know ``what Dad does,'' and that I was only preparing them for 
Fancy World. Then he launched into his anything-can-happen-at-any-time 
doomsday lecture.

    I followed established procedures after I met with a 7th Group 
Special Forces Family Life Counselor. I was directed to the Eglin AFB 
[Air Force Base] Domestic Abuse Victims Advocates (DAVA) for a ``safe 
plan out.'' Once going to DAVA, they reported the abuse to John's 
command. Ultimately I escaped with our children from Florida with the 
assistance of the Air Force.
    The argument could be made that the Army recruited my husband to 
the elite forces BECAUSE he exhibited characteristics of a sociopath. 
They then went on to exploit his lack of empathy, accelerating his 
transformation into a weapon. So he is now an Army-trained assassin and 
an expert in weaponry, interrogation techniques, and survival skills. 
He is cruel, volatile, and frequently noncompliant. The Army knew that 
he had a wife and small children, and must have known he was capable of 
domestic violence. Yet when I reported abuse, the Army stood behind 
their man. They should have protected my children and me from the 
monster they helped polish.
    After our initial escape, my kids and I were forced to be put in a 
certain level of hiding for more than a year. We resided at three 
Arizona DV [domestic violence] shelters. My objective was to find us a 
safe place to live, but whichever direction I headed, obstacles piled 
up in my way. The programs created to protect and address the needs of 
domestic violence victims are, unfortunately, grossly inadequate; when 
you shift the focus to military families, it seems even worse. Nobody 
wants to believe a soldier who risks his life to protect his country is 
going home at night to beat his wife and kids. Naturally, people are a 
little reluctant to rush to judgment when it comes to soldiers. The 
public seems more willing to excuse, ignore, or quietly accept the 
behavior, and the results can be catastrophic. My husband ``allegedly'' 
(current Phoenix police case) found a way to access information about 
my location at an Arizona DV shelter, after he was sent to training per 
his command from his base in Florida to stalk the children and me. 
Other shelter residents reported seeing him at the shelter, and we were 
immediately relocated to a different DV shelter. How many people were 
endangered as a result of that inexplicable breach?
    My husband's abuse was despicable, but he has not yet been punished 
for it. I have worried at times that from the Army's perspective, I 
have been a bigger liability than he is. I gave 7GSF the chance to make 
a difference in my domestic abuse crisis. I went to them, hoping they 
would listen to me, shoulder some responsibility for my husband's 
behavior (the blurring line between his performance as a soldier and 
his increasingly dark interactions with my children and me), hold a 
mirror up to him and show him how unbecoming a soldier his behavior 
truly had become. Had his unit done this, the military's reputation 
would have remained unblemished in my mind. Given the unit's elite 
status, I expected nothing less.
    I went full disclosure thinking John's command would understand 
exactly who and what he is. Not only as a mother protecting her 
children, but as a citizen protecting others and an Armed Forces 
supporter trying to avoid the tarnished reputation of the Army. This 
man used multiple different abuses on our household. This almost cost 
my son & myself our lives. Our dog wasn't so lucky and died at the 
hands of domestic violence. In addition to this he engaged in a lot of 
questionable activities that pose public safety concerns. Abuse should 
never be ignored! Especially on the caliber of threat John blatantly 
presents.
    FACT: Domestic abuse is now part of the culture of 7GSF. Domestic 
abuse has become the norm, not the exception. Nobody talks about it or 
questions it, so by default it becomes permissible, and then 
comfortable. When something like domestic abuse becomes comfortable in 
the culture, it is very, very difficult to change without enormous 
resistance. In the meantime, the number of military families ensnared 
in this very unhealthy cycle continues to grow.
    We expect military families to support those who serve. This is a 
much greater burden in families where servicemembers go through special 
training meant to transform soldiers into sophisticated military 
weapons. Their training diminishes personal attributes like remorse, 
conscience, and empathy, with a logical net result. The better these 
soldiers become as weapons, the less able they are to access what makes 
them human beings. We must recognize the cause and the inevitable 
effect: domestic abuse.
    I am writing today to ask for your help to exact MEANINGFUL CHANGE.
    I believe domestic abuse in military families can become part of 
the community's culture, becoming so common that it is excused, 
ignored, or accepted. 7GSF's culture was quiet acceptance of domestic 
abuse that inherently isolated and excluded abuse victims. We MUST 
enact legislation that shines a spotlight on this ugliness.
    Here are my suggestions:
    1.  Establish clear and specific procedures for reporting abuse 
and/or transitioning out of abusive situations without interference by 
military personnel (command, unit members). Provide victims referrals 
(legal, community, housing, transportation, etc.) to facilitate their 
safe exit. Communicate these procedures clearly and frequently to 
military families.
    2.  The management and investigation of domestic abuse allegations 
should shift from command to military advocates, who should have 
greater accountability for the safety of abuse victims. Increase 
training so military advocates detect domestic abuse situations sooner.


------------------------------------------------------------------------
              COMMAND                         MILITARY ADVOCATES
------------------------------------------------------------------------
  Relationships with abuser is not        Educated in abuse psychology,
      likely to align with the best         intervention, and treatment
         interests of abuse victims
------------------------------------------------------------------------
  May be perceived as intimidating      Perceived as less intimidating,
    and not approachable by victims                   more approachable
------------------------------------------------------------------------
 Observations and input are a very     Equipped to prescribe treatments
      important part of determining     (stress exercises, preventative
   whether a case is domestic abuse   care), encourage abuse awareness,
                                                        provide support
------------------------------------------------------------------------

    3.  Schedule mandatory, regular physical well checks for all 
members of military families. Take command out of this loop, thus 
enabling medical staff to record and track family members' health and 
well-being and detect early signs of domestic abuse.
    4.  Tighten privacy standards on medical records to encourage open 
discourse with victims of domestic abuse. Medical staff training should 
include early detection of domestic abuse.
       a.  Require family members to schedule a private initial visit 
with medical staff. During this visit, establish a safe word or PIN to 
authorize the release of medical records to a third party. If a soldier 
then requests the release of a family member's records (one way of 
maintaining control over victims) without the safe word or PIN, medical 
staff could reasonably assume follow-up may be necessary and contact 
the appropriate military advocate.
    5.  Establish frequent contact between military families and 
support services. If a soldier displays unhealthy or unfavorable 
behavior on duty, require military advocates to check in on families 
and perform stress management evaluations.
    6.  Proposed policy: When a soldier has an open order of protection 
against him or her, it is mandatory that the soldier's whereabouts be 
accounted for. Notify all complainant(s) promptly about post 
reassignments or other location changes that might put the 
complainant(s) in danger. Make command accountable for noncompliance.
    I believe it is time to make the safety of military families a 
priority, especially now when we expect so much from them and they are 
so vulnerable. Thank you for your time, and thank you in advance for 
enacting legislation that pulls the issue of domestic violence in 
military families to center stage.

    Senator Gillibrand. I hope that today's hearing is the 
beginning of a productive dialogue that can do just that, shine 
a light on these issues. I hope we all listen to the survivors 
of these crimes, listen to the advocates who work on these 
cases day in and day out, and listen to the experts to truly 
gain a better understanding of these cases and what we could do 
to improve our prevention and response. I hope that some day we 
are all here again talking about how far we have come in 
celebrating that there are no more cases like Talia's.
    Senator Tillis. Do any other senators wish to make a 
comment before the testimony?
    Senator McCaskill. If I could briefly?
    Senator Tillis. Senator McCaskill?

             STATEMENT OF SENATOR CLAIRE McCASKILL

    Senator McCaskill. I have to catch a plane, and I want to 
apologize to everyone who will testify today because I will not 
be able to stay for all of it.
    But I think this is such an important topic for us to 
tackle because if you really understand domestic violence, you 
realize that the unique characteristics of military service and 
their impact on the family could, in fact, be a dangerous Petri 
dish for domestic violence flourishing.
    By that I say that one of the biggest challenges we have 
with domestic violence--I will never forget when I began the 
domestic violence unit in Kansas City when I was the elected 
prosecutor in the 1990s, and I had a fight on my hands with the 
police department and even with my assistant prosecutors. They 
said, you know, Claire, we cannot prosecute this crime because 
there was not a witness because the victims always decide they 
are not going to go forward. And I said, well, we better shut 
down the homicide unit then because we manage to prosecute 
homicides when the victim does not speak. So we need to build a 
case, and if we build a case, then victims will begin to trust 
us that we can move forward and find justice and protection for 
them. But if we just keep doing this circular reasoning--
    Why I mentioned the military as particularly a challenge, 
there is isolation for families within the military, 
particularly as people are transferred with some regularity. It 
is not as if many military families have the opportunity to set 
down roots and have the kind of support system that is so 
necessary to protect the victims of domestic violence. If there 
is not a support system in the community, then more domestic 
violence incidents will end up as homicide incidents.
    So I am anxious to be part of this. I appreciate you all 
having this hearing. I do think we need to look at the support 
system right now in the military for people who have been 
victimized by domestic violence and are trying to find a way 
forward because if it is hard to figure out your personal life 
going forward when your partner has a civilian job, imagine how 
difficult it is if your partner is a member of the military and 
you are dependent in so many other ways.
    So I do think it is terrific, and I will follow up and read 
all of your testimony. And I will look forward to working with 
my colleagues, Senator Ernst, Senator Tillis, and Senator 
Gillibrand, as we try to find better solutions and support for 
addressing this problem within the Department of Defense. Thank 
you all very much.
    Senator Tillis. Thank you, Senator McCaskill. We will now 
begin with the testimony, and Ms. Perry, we will start with 
you.

                   STATEMENT OF ADRIAN PERRY

    Ms. Perry. I would like to thank each and every one of you 
for allowing me this opportunity to appear before you today and 
share my family's story, as well as offer my perspective on the 
prevention, detection, investigation, and treatment of 
childhood abuse and sexual assault within the military.
    My name is Adrian Perry and I am the spouse of an Active 
Duty United States Marine. My husband, Rick Perry, is a Major 
in the United States Marine Corps serving as an executive 
officer and is currently deployed. This is my husband's fifth 
deployment we have gone through together as a family. I have 
always been so proud of my husband's service to our country, 
and I have always been so proud to hold the title of a United 
States Marine spouse. This life has brought us so many amazing 
opportunities. We have lived in Quantico, Virginia; Camp 
Lejeune, North Carolina; Oahu, Hawaii; and Okinawa, Japan. Our 
children have been given the gift of world travel, and through 
that, we have been able to make precious and priceless memories 
as a family. The patriotism that resides in the heart of each 
member of our family is immeasurable.
    Unfortunately, my love for the military was forever tainted 
by the acts of a colonel, a colonel named Daniel Hunter Wilson. 
Wilson was one of my husband's previous bosses in Okinawa. From 
Okinawa, Wilson was sent to Camp Lejeune, North Carolina to be 
the 2nd Marine Expeditionary Force G-3 operations officer. 
Shortly after Wilson arrived at Lejeune, our family was moved 
to Lejeune as well. Wilson was one of the very first people to 
reach out to us and offer us support when we arrived at our new 
duty station.
    Within a matter of a couple of weeks of visiting the 
Wilsons' house, my 6-year-old daughter confided in me that 
Wilson sexually abused her during that time. This disclosure 
occurred in the Wilsons' home.
    Upon finding out this horrible, heinous act had been 
committed upon our child, my husband and I drove to our house 
where we immediately called the military police (MPs). We had 
the MPs at our home in a matter of minutes, as well as Naval 
Criminal Investigative Service, also known as NCIS. This was 
the start of the investigation. When NCIS came to our home, we 
disclosed to them what our daughter had told me.
    The next morning we received a call from an NCIS agent 
asking if we could be at the Onslow County Child Advocacy 
Center for a forensics interview. This is a child advocacy 
center that is off base and is civilian-run.
    A couple of NCIS agents met us at the center. While the 
civilian forensics interviewers spoke to my daughters, NCIS was 
in a separate room monitoring the interview via a live feed. My 
daughters' interviews were conducted with no input or follow-up 
from NCIS. The agent himself later stated that he left the 
decisions regarding the interview solely up to the forensics 
interviewer. A couple of days after we reported what happened 
to our daughter, NCIS called us to set up a forensics exam. 
There was a huge challenge finding an expert in the town of 
Jacksonville, North Carolina who could do a forensics exam on a 
6-year-old child. There were no pediatric forensic exam 
specialists available in our area to do our daughter's exam. 
The specialist the child advocacy center utilizes was not 
available. We were sent 2 hours away to Greenville, North 
Carolina to the Teddy Bear Clinic for her exam.
    As parents, our hearts were shattered. Many days I felt as 
though I could barely breathe. Just when I did not think things 
could get any worse, one of our other daughters shared with us 
that Wilson had done something to her as well. She too was 6. 
It was her twin sister.
    We notified investigators as soon as this was brought to 
our attention. As the investigation began, it started to seem 
as though every bit of information and the evidence obtained by 
NCIS was information and evidence my husband and I were giving 
to them. NCIS obtained my cell phone, as well as my husband's 
cell phone, and did a complete data dump from both of our 
phones. We gave them our Facebook passwords so they could scour 
through any and all information we might possibly have that 
could assist with the investigation.
    I assumed NCIS would be doing the exact same thing with 
Wilson's devices. However, I was very wrong on that. Wilson's 
cell phone and computer were never seized to this day. I 
continuously asked about the possible seizure of Wilson's 
personal electronic devices. The responses I would get varied 
on the issue. A few times I received responses that made me 
think they were in planning mode to seize his personal devices, 
and other times they gave me responses that made it seem as 
though legally they could not seize his personal devices 
without causing negative ramifications for our case.
    I understand that I am not a trained investigator. However, 
my common sense told me and still tells me that investigation 
101 would have led to the seizure of his personal devices given 
the charges and allegations against Wilson.
    I come from a line of law enforcement professionals, both 
police and FBI [Federal Bureau of Investigation], and each and 
every one of them were appalled and shocked that Wilson's 
personal computer and personal cell phone were never seized.
    Despite the near exclusive reliance on me and my husband 
for the facts, no one from NCIS ever sat down with us to create 
a timeline or verify facts and dates. My husband and I on 
several occasions questioned why no one was speaking to us to 
pull together the facts. We questioned how they would be 
capable of formulating a solid case without speaking to us. As 
a matter of fact, my husband and I began to feel that this case 
was too big for NCIS alone. The tentacles were deep and it 
required a widespread net to be cast as far as investigative 
work is concerned. We are talking about a ``full bird'' marine 
colonel, one rank shy of being a general, with over 35 years of 
service who has been stationed, deployed, or temporary Active 
Duty in multiple countries and multiple States across the 
United States of America.
    We asked on numerous occasions for a meeting with the 
Special Assistant U.S. Attorney, also referred to as the SAUSA, 
in order to discuss possibly bringing in the FBI to collaborate 
on this case with NCIS. The SAUSA would not meet with us 
whatsoever.
    In one of the many attempts to give NCIS information, my 
husband and I shared with NCIS that prior to coming to Camp 
Lejeune, Wilson had been abruptly removed within a matter of 
days from a temporary command he was given where he was in 
charge of a 6-month exercise between the United States Marines 
and the Australian Defense Force in Darwin, Australia. We 
suggested NCIS look into why he was removed from his position.
    It came out during the investigation that Wilson had made a 
sexually inappropriate comment to the wife of a United States 
contractor in Australia. He had sent overly friendly text 
messages to a female Australian Defense Force major. He drank 
alcohol excessively. He shared risque photos of one of his 
captain's wives to the Australian Defense Force commander. He 
snuck on to a secure government computer belonging to a female 
Australian Defense Force contractor and sent out an 
inappropriate email to the Australian Defense Force commander.
    This misconduct, most of which was sexual in nature, showed 
prior similar behavior. Based upon my perception, I do not feel 
Wilson's prior misconduct was adequately investigated. These 
allegations led to questions of possible prior sexual 
misconduct while Wilson was stationed in Okinawa. However, NCIS 
was nonresponsive to investigating Okinawa concerns. Overall, 
it appeared as though there really was no attempt to delve into 
Wilson's past to discover prior misconduct, despite the fact 
that he was charged with a child sex crime.
    Even after uncovering that Wilson had been alleged to have 
behaved in such a sexually inappropriate way in Australia, to 
include nearly nude photos of one of his captain's wives on his 
Facebook messenger, NCIS still did not seize Wilson's personal 
devices. I cannot wrap my brain around the failure of NCIS to 
act swiftly to obtain evidence from Wilson via his personal 
devices. This failure has me questioning heavily how lower 
ranking servicemembers in situations like ours are treated and 
how their cases are handled.
    Nearly 5 months--5 months--into the investigative process, 
our case was assigned to three powerhouse attorneys who did an 
unbelievable job in seeing to it that justice was somewhat 
served for our daughter. Our case eventually went to a general 
court martial where Wilson was found guilty for sexual assault 
of a child, conduct unbecoming of an officer and gentleman for 
all charges against him in Australia, and unauthorized absence. 
Wilson was sentenced to 5-\1/2\ years in the military brig. 
During our trial, I was not given the opportunity to give a 
victim impact statement on behalf of my 6-year-old daughter. I 
was reminded of the pain I felt due to my voice being 
restricted at sentencing when I saw the gymnasts who were 
victims of Larry Nassar giving their victim impact statements. 
We were not given that opportunity to be heard. Part of being 
able to heal from something as traumatic as this is to be able 
to speak to those who have harmed you. Those gymnasts were 
given such a gift by having their voices heard. It was a gift 
we did not receive.
    In our trial, not only were our voices restricted, but the 
judge directly addressed the jury and read aloud all of 
Wilson's military accomplishments, stating for the jury to 
consider his prior military service to our country when they 
went to sentence him. I will never forget that moment. It was 
like a slap in my face as a mother. Hearing his awards, 
accomplishments, deployments, and leadership accolades be read 
aloud as if they erased what was done to my daughter crushed 
me. I sat there speechless, absolutely dumfounded and in shock 
as to what my ears were hearing. Then I sat and watched his 
defense attorney get up and hand a huge album over to the jury 
that was filled with photos of Wilson as a child, all the way 
up through his adulthood and military career. Where was my 
daughter's photo album for them to look through as they 
considered his fate?
    My personal experience through the investigation process 
has led me to the following conclusions.
    Number one, reports and concerns brought to the people in 
positions of legal power are not always welcomed or taken as 
seriously as they should be. In our case, we requested meetings 
on multiple occasions in order to address concerns we had for 
our own personal safety. We were often met with absolute 
refusal to be heard, or when granted a meeting, we had to fight 
tooth and nail to be heard. For example, we had to fight to 
have a protective order enforced properly against Wilson. He 
was being allowed to drive by our home multiple times a day to 
get to and from work. I should not have to fight to keep my 
children, my husband, and myself safe.
    What would the outcome have been for a young lance corporal 
in the same situation?
    Wilson was not detained for what he did to our daughter 
until 5 months--5 months--after we reported what happened. For 
5 months, we had to live with Wilson roaming free wherever he 
pleased on base, living about a half a mile from our house. 
That was traumatizing to say the least. We had to restructure 
our way of life in order to live on base with Wilson due to a 
state of constant fear for our safety.
    The only reason he was finally detained was because an 
adult female came forward alleging that Wilson had sexually 
assaulted her as well.
    Number two, rank matters. I am very concerned how other 
survivors are being treated who may not have the same resources 
or the ability to advocate for their case like my husband and I 
did. To be quite honest, they should not have to fight to be 
heard, believed, and taken seriously. I want to make something 
very clear here. Rank matters in how these cases are treated, 
and that is unfortunate. I believe wholeheartedly had my 
husband and I stayed silent and let the system as it is right 
now do its job, justice would never have been somewhat served 
for our daughter.
    Number three, there is a serious failure to provide 
adequate resources for survivors of sexual assault. There is 
the failure to provide mental health care. The only resource we 
were given in regards to mental health care was from that of 
Onslow County Child Advocacy Center. I was handed a sheet of 
paper with three names on it of counselors who specialized in 
child trauma therapy. Two of those were on base and one was off 
base. I did not feel comfortable with going on base for any 
help after what we had suffered at the hands of someone in the 
military. That left us with one option for emotional help.
    One, it is not okay that a victim of child sexual abuse is 
not being afforded more options for mental health than a mere 
sheet of paper with three names on it. Keep in mind that the 
little help that was offered was not from the military. It was 
from Onslow County. Our civilian victims legal counsel who 
worked pro bono on our case stepped in and worked tirelessly to 
find us a therapist that could see our entire family. Let that 
resonate. Our civilian legal counsel that we ourselves sought 
out had to fill in the gap for the military and get us the help 
we truly needed. Where was the military when we needed them? 
What did the survivors who do not have the resources we had do? 
What is happening to them?
    The military needs to adequately provide mental health care 
resources for survivors of all types of abuse. It is my humble 
opinion after our experience and after speaking with many 
survivors that the military is falling incredibly short in this 
arena. Providing mental health care should be on the forefront, 
a must-do for the military in order for survivors to be able to 
begin to heal and have the support and help they need and 
deserve in order to get through this type of trauma and the 
trauma that comes with having to prepare for and go to trial.
    There is also the failure to provide sexual assault 
forensics experts and specialists. After reporting what 
happened to our daughter, a couple days later NCIS requested we 
take our daughter to have a forensics exam. We had to drive 
over 2 hours away to have our daughter be seen by a pediatric 
forensics exam specialists because there were not any available 
to see her in or around Camp Lejeune, North Carolina. My 
daughter and every other survivor of sexual assault should be 
afforded a prompt, readily available forensics exam. It is 
unacceptable to me that we had to drive for 2 daunting hours to 
take our child to do something no parent should ever have to 
take their child to do because the resources required were 
nowhere to be found within our vicinity.
    Number four, there is a lack of properly trained 
investigators. In our case, NCIS failed to seize Wilson's 
personal cell phone and his personal computer. I question why 
there was such refusal to seize his devices. They also failed 
to thoroughly delve into Wilson's past in order to connect and 
look into prior similar behavior.
    Another concern is that NCIS did not seem to be properly 
trained in regards to how child forensic interviews should be 
carried out and handled. This is evident by the lack of a 
follow-up interview with my children.
    NCIS was not quick to respond to obtaining any evidence 
whatsoever from the accused. The sole means of evidence 
collection should not be from the victim. Their failure to 
promptly obtain evidence resulted in very little evidence being 
collected from Wilson. Although there were two personal hard 
drives found belonging to Wilson right before the trial began, 
they were not discovered in enough time prior to trial to be 
used in any way for trial or charge purposes. NCIS had plenty 
of time to put forth a solid investigation, but it came across 
as though our case was not a priority.
    Wilson went to trial with over 20 charges against him. It 
is my belief that had NCIS conducted a more thorough and solid 
investigation, more of these charges would have stuck. A 
finding of not guilty is not a finding of innocence.
    NCIS was apparently not trained in such a way that provided 
a proactive role in our case. The investigators working sexual 
assault cases need to be trained more thoroughly. Their lack of 
knowledge in how to properly handle and investigate these 
sensitive cases is failing survivors and making the possibility 
of justice nearly impossible. We deserve so much better.
    Number five, there is inadequate sexual assault prevention 
follow-through from commanders. Yes, there is plenty of 
training being given to these commanders, but where is the 
follow-through? This was evident in the lack of response to the 
concerns and red flags that were raised in regards to Wilson's 
prior misconduct in Australia that was sexual in nature. Had 
Wilson's command properly addressed the many reports of 
misconduct from Australia, Wilson would never have been able to 
take our child's innocence from her. Commanders need to know 
how to identify red flags, take them seriously, and respond 
accordingly. It took an Australian commander to point out to 
American Marine commanders that the Marine Corps had a serious 
problem on their hands with Wilson. How did our own military 
miss this?
    Catching and acting on those red flags is the vital step 
that is missing in our military when it comes to prevention. 
These predators are not being caught until it is too late and 
another human being's life is torn apart. The cost of failing 
to prevent these predators is too high to just turn a blind 
eye. In our case, the cost was that of my 6-year-old daughter's 
innocence. I will never be able to fix that or get her 
innocence back for her. The evil that was done to her is an 
evil only God can redeem, but it is an evil that the Marine 
Corps could have prevented. I cannot stress enough the need for 
military leadership to identify red flag behavior, and not only 
do they need to identify this behavior, but act on it promptly.
    Finally, trained legal professionals should be spearheading 
these cases. Our team of attorneys, Lieutenant Colonel John 
Stevens, Captain Sam Adams, and Captain Cory Wheelert, were 
nothing short of a powerhouse team. Each one of them brought 
something powerful and important to the table. If it were not 
for these men coming on board nearly 5 months after we reported 
what happened to our daughter, we would never have had any hope 
of seeing justice somewhat served. They were phenomenal. When 
they stepped in, it was as if order had finally come. The 
importance of the legal professionals cannot be overlooked and 
needs to be embraced and supported.
    There also needs to be a focus on ensuring that survivors 
of all types of abuse are afforded victims legal counsel. I do 
not know what we would have done without our military VLC, 
Major Nathan Cox, and our civilian team of VLCs from Arnold and 
Porter. They were our voice. And without them, we would never 
have been heard.
    In closing, I would like to thank you all again for your 
time. I want everyone to understand that I love our military, 
and I love the United States Marine Corps. Yes, what happened 
to our daughter shook our world up and it changed so much in 
our lives. What Wilson did to our daughters changed them 
permanently. This devastation done to our daughters crippled my 
husband and I to our core. I personally grew very angry, but 
what I realized is that my anger was and is righteous. Part of 
that anger and hurt stems from the fact that the very 
institution that my husband and I have remained loyal to for 
over 18 years and continue to remain loyal to despite what we 
have suffered has still yet to offer a simple apology for what 
was done to our daughters.
    I knew I had to take the hurt and the pain and anger and 
the evil done to our family and do good. I am here today to do 
good for our military and our Marine Corps. I am here in hopes 
that my voice will be heard on behalf of all survivors of abuse 
so that the principles and values of what the Marine Corps and 
our entire United States military were founded on can be 
salvaged.
    It is extremely unsettling to me that the first question I 
am asked when people find out that I am advocating on this 
matter is, how has this affected your husband's career? It is a 
serious problem when advocating for what is right and good in 
regards to child sexual abuse is looked at as a threat to 
positive progression in the career of a servicemember.
    If our military continues to turn a blind eye to the dark 
culture breeding in our military's ranks, the military will be 
the victim of their own demise. This culture has to be 
attacked. The enemy is not always fought abroad. In this case, 
it is staring us right in the face in our very own ranks. Our 
country is the great force that it is because we have fought 
for and accepted change over time throughout the history of our 
Nation. This very same concept applies for our military and how 
cases of abuse are handled. We can no longer accept the current 
handling of these cases. Times are changing, and the military 
should be the first to not only adapt but act, setting the tone 
for all institutions on how these cases should be handled. We 
are known for our powerful Armed Forces. And the fact that this 
is happening in our own ranks is a sign of weakness to rest of 
the world. It is a mission the United States military is 
failing at currently.
    The military should be the institution that is setting the 
precedent in what right looks like in regards to how these 
cases are investigated and treated. It is time for military 
leadership to become part of the solution. As a mother, I will 
not stop fighting for justice for my daughters and for those 
who cannot fight for themselves.
    Thank you so much for your time.
    Senator Tillis. Thank you, Ms. Perry.
    Ms. McKinley?

                  STATEMENT OF MERCI McKINLEY

    Ms. McKinley. Senators, thank you for having me today. My 
name is Staff Sergeant, retired, Merci L. McKinley from the 
United States Army, and I am a survivor of intimate partner 
violence in the military.
    I am here today to be on the front line to share my 
experiences and recommendations in an effort to improve the 
military's approach towards domestic violence as a whole. I am 
going to disclose the following: the type of abuse I 
experienced, my interaction with the Killeen Police Department, 
the type of medical care I received, my process with the Family 
Advocacy Program, experiences with other survivors prior to 
separation from service and after separation from service, the 
process I took to even receive the justice rendered that I now 
question, and the overall recommendations based upon the 
aforementioned.
    While stationed at Fort Hood, Texas from September 2014 to 
January 2015, I was involved in an intimate relationship with a 
military member of equal rank. During the course of this 
relationship, I was both strangled and beaten. I was strangled 
in such a manner that I had to take muscle relaxers long after 
just to be able to talk, eat, and swallow.
    The measures I was using to conceal the extent of my 
injuries was not working. After 3 days of attempting ice packs, 
I elected to be seen at the troop medical clinic in which I was 
prescribed muscle relaxers.
    In January 2015, I was physically assaulted which resulted 
in significant bruising in my torso, legs, back, arms, and 
additional damage sustained to my prosthetic knee. At the time, 
I was being medically retired for failure to progress in a 
certain amount of time following a left total knee replacement 
and other treatments to address the wear and tear that 
deployment in military assignments had placed upon my body.
    During the assault, the servicemember repeatedly struck, 
kicked, and stomped in the area where I had my implant, which 
caused it to become loosened. In June of that year, I had to 
undergo surgery to repair the additional damage.
    Immediately following the assault, I reported it to the 
Killeen Police Department where I was greeted by both a male 
and female police officer. The male police officer took my 
statement while the female police officer's responsibility was 
to photograph and document my injuries. While I was attempting 
to explain the cuts on the inside of my lip, the female officer 
replied, oh, it is not that bad. From this statement alone, I 
deduced that she was not taking me seriously. At the 
conclusion, I was given the card of the male police officer on 
duty who advised me that usually the full extent of one's 
injuries do not surface until the following morning.
    The next morning I noticed I was sore, had significant 
bruising in certain areas of my body, my breathing was labored, 
and I was limping. Rather than report to early accountability 
formation in that condition, I went to Carl R. Darnall Hospital 
emergency room to be seen. I explained what happened to the 
attending physician who completed my exam and ordered x-rays to 
ensure I did not have internal injuries or bleeding. The 
attending physician asked if I was sexually assaulted as well, 
which I denied. I was prescribed additional pain medications. I 
was released, but neither medical personnel from either the 
troop medical clinic nor the Carl R. Darnall Hospital emergency 
room elected to notify the military police.
    I confided in a female noncommissioned officer within my 
unit who recommended that I go to Family Advocacy to seek 
additional care and counseling. Under her recommendation, I 
went to Family Advocacy on Fort Hood, Texas and completed an 
initial intake. During my intake, the representative asked if I 
wanted to complete a restricted or unrestricted report, and 
they completed a matrix. Based upon my response to the matrix, 
the representative excused herself to go speak with the 
director.
    Due to the severity score received from the matrix, I was 
advised that a restricted report was not an option, as my 
overall safety was at stake. I was also informed that I was 
perhaps de-sensitized and in denial that I could not see the 
escalation of abuse nor how it affected my overall safety. I 
was provided a packet that included information on how to file 
a pro se protective order, my responsibility to complete the 
enrollment in Family Advocacy Program, and a safety plan.
    The next day I contacted the district clerk's office of 
Bell County, Texas to inquire about what all was needed for the 
pro se protective order. I was told I would need copies of 
medical evidence and anything else that would support my 
request for an order of protection. I had to go to the Carl R. 
Darnall Hospital correspondent's office to obtain copies of 
every time I was medically seen for the abuse. This took some 
time because I had to wait for clearance from my supervisors to 
grant me permission to take care of what was required. I also 
had to wait until the hospital correspondent's office retrieved 
the copies of my exams from my medical records. Depending on 
what is required to be retrieved from your medical records, it 
can be an immediate response, a 72-hour turnaround, or as long 
as a month.
    Once I had what was required, I went to the district 
clerk's office to file my pro se protective order request in 
person. I had to wait the majority of the day for it to be 
accepted, approved, signed by a judge, and given a court date. 
From there, I had to take all of the approved documentation 
myself, the temporary protective order, and court date to the 
Killeen constable office so they could, in return, serve the 
accused. Before the accused could be served, the Killeen 
constable office had to coordinate with the Fort Hood provost 
marshal office to serve the papers on a military installation, 
as the accused was trying to avoid being served off post. I 
cannot definitively say the time frame this process took, but 
it was neither immediate nor within a 1-day time period.
    I was accepted by Lone Star Legal Aid to assist with my 
upcoming court hearing in reference to my protective order.
    The day of the first court date, the judge delayed the 
hearing to provide the accused ample time to seek legal 
counsel, as well as fulfill his financial obligations to the 
court.
    Between that period of waiting for the next court date of 
February 18th, 2015, the accused had contacted my legal aid to 
try to get the protective order amended to suit his needs. My 
legal aid called me and said directly, ``Ma'am, I think he is 
just trying to save his career and convince me to oblige of his 
request.'' I was not clear as to her stance and whose side she 
was on directly. So I fired her.
    In an effort not to be without legal representation by the 
next court date, I tried to find an attorney within the local 
vicinity. It took me going through a total of 10 attorneys to 
find one who did not attempt to throw me out of their office 
and accept a payment plan based upon their fees.
    Needless to say, my 2-year protective order was granted on 
February 18, 2015. The presiding judge, who was a retired 
colonel from the JAG Corps, distinctly asked me if I knew the 
difference between a civil court and a criminal court. She also 
asked why weren't any charges filed. I responded with the 
detective assigned was hard to reach, and I was also informed 
that they were backed up with other cases and that was the 
explanation that I received as to why no charges were filed. 
She was flabbergasted in a sense, but advised my attorney to 
make sure I obtained a copy of the court transcript and 
proceedings to provide to the Killeen Police Department and the 
military. She ordered the accused to reimburse my attorney 
fees, pay the court, and adhere to the 2-year protective order.
    The victim advocate from Family Advocacy Program who 
accompanied me to court assisted with obtaining the written 
military protective order once the civilian protective order 
was granted.
    My attorney informed me that I was the first case in which 
the judge ordered the accused to reimburse the attorney fees 
and had given a direct order to provide the court transcript to 
the local and military authorities.
    I met with my attorney once more who said directly--and I 
guess this was just his opportunity to try to properly advise 
me. He said, ``I am going to advise you as if you were my own 
daughter standing before me.'' He said, ``Do you honestly think 
the Killeen Police Department is concerned about a few cuts and 
bruises here and there? If you want justice in any form, you 
need to knock on the doors of 3rd Corps, which is Fort Hood, 
Texas and the general over Fort Hood, Texas. I have seen too 
many cases like this, and the military needs to do something.''
    Under his advisement and insistence from the judge, I 
followed and commenced the process. I paid for the court 
transcript, and I contacted the 3rd Corps commander's secretary 
asking to be placed on his calendar. Furthermore, I met with 
the supervisor of the detective to express my concerns with the 
lack of investigating. I spent the majority of the time 
thereafter pleading with both parties to transfer jurisdiction 
to the military.
    The military took jurisdiction. Criminal Investigation 
Division performed their investigation, and the Family Advocacy 
Program case review committee convened. Both the Family 
Advocacy Program case and the Criminal Investigation Division 
came back rather quickly with the result found. Charges were 
conferred for a court martial. However, the accused was 
administratively separated in lieu of the court martial, and I 
now question the full extent of whatever consequences the 
accused actually received.
    Prior to this, the prosecuting attorney kept advising me 
that she represented the chain of command and the chain of 
command's best interests. This was to make it abundantly clear 
that she was not my attorney. However, due to the rapport I am 
assuming she and I developed, she had expressed frustration 
with previous cases in a generalized manner. She expressed her 
confidence of dotting all of her I's and crossing all of her 
T's to ensure a conviction and failed to obtain one. She also 
expressed in confidence of how after selecting the panel for 
court, some members still hold firm to the belief of why did 
they not just leave or assaults occur in dark alleys by 
complete strangers.
    I was provided a copy of the case review committee results, 
and an attorney from his chain of command was content with the 
results because at least something was done.
    The key takeaway from this whole process is what I had to 
do and the effort it took on my part. Not all survivors of 
intimate partner violence are the same. If we go forward 
expecting this to continue to be the process in any way, shape 
or form, justice could be delayed or even denied. The cycle of 
abuse will continue because some will compare the amount of 
effort it takes in an attempt to compartmentalize and 
rationalize the abuse as a means to stay in the situation.
    Prime example. In 2017, after separating from service, I 
encountered a female friend who was Active Duty and in the 
Navy. Her civilian husband had punched her in the face while 
she was holding their infant daughter and attempted to push 
both of them down a flight of stairs. She approached me with 
her situation, and I immediately advised her to see the Navy's 
Family Advocacy. They handed her the same packet I was 
provided. Where she and I differ was no reference list was 
given of legal aid services.
    Finally, we contacted--well, she and I contacted the House 
of Ruth. She rarely had any contact with her legal aid, and 
when she did, it was minimal at best. A blanket service was 
being provided rather than tailored to her situation.
    When she attempted to change the locks of her own home, she 
was advised she was not allowed to do that. In addition, her 
husband had control of all of the finances. She could not 
afford a real attorney nor could she adequately afford Pampers 
and necessities for her child.
    I told her to contact the Navy's version of the Army 
emergency relief of her command financial noncommissioned 
officer. She was denied financial assistance.
    I cannot definitively say what became of her situation 
because our contact became few and far between by her choice as 
she dealt with what she was facing. Despite my providing her 
financial support or trying to develop ways to afford an 
attorney retainer fee for her, it was not enough. I tried my 
best to advise her based upon my own personal experiences. Her 
unit did not even attempt to grant her accommodations on the 
military installation, which is local here, since she was 
advised she was not allowed to change the locks on her home.
    Throughout my process, I still had to complete the 
mandatory counseling through Family Advocacy. There was a 
slight miscommunication with scheduling my appointment to being 
seen to enroll in the mandatory counseling required. The 
receptionist was attempting to place me within a support group 
prior to be seen by a licensed clinical social worker. The 
normal process--and it should be the process--is for the 
licensed clinical social worker to first determine if one-on-
one counseling sessions would be more suitable for treatment as 
opposed to group sessions.
    During the group sessions, we were provided handouts that 
predominantly covered the warning signs of abuse. The start of 
each group session was to discuss the warning signs of abuse, 
where we were in the process with regards to our cases. Some 
sessions included spouses and military personnel expressing 
trying to reconcile with their abuser, their abuser cutting off 
utilities, freezing their bank cards, not being able to get a 
hold of anyone within their abuser's unit, not receiving 
adequate assistance, et cetera. There were some spouses from 
foreign countries and other spouses who did not know their 
abuser's unit, where they specifically worked on the military 
installation, or where important agencies and resources were 
located. Quite frankly, some appeared as though they were at 
their breaking point.
    The civilian that was running the group sessions sat stoic 
in a sense, determined to keep us all on track with the 
handouts provided. I almost equated this experience to being a 
student under the care of a substitute teacher who provided us 
busy work.
    What had occurred was I connected with some of the spouses 
that expressed not knowing where certain agencies and 
assistance were located both on the military installation and 
locally. I had arranged a time after our group sessions to 
personally take them from point A to point B. If a spouse 
indicated that they had not heard from their victim advocate, 
which was quite often, or direct representation from Family 
Advocacy in X amount of days, I would physically take her to 
the FAP to be seen.
    On one particular incident, a spouse was told quite frankly 
in an abrupt manner, ``You need to get a job.'' This was in 
response to expressing the utilities were shut off purposely by 
the abuser or withholding financial assets. It was the manner 
in which the spouse was spoken to that I had a direct problem 
with. This very same spouse was without a GED [General 
Education Development], as it was required for her to support 
her husband's career, stay house-ridden rather than further her 
own goals. This prevented her from getting a job.
    However, I took her to the Army community service building 
that was advertising classes for both GED and English as a 
single language classes. This simple assistance served other 
females within that domestic violence support group conducted 
by Family Advocacy Program well and empowered them to make 
better decisions towards their situations. The key takeaway is 
that I had to be the one to do it.
    Given the aforementioned details account of my experiences, 
I believe intimate partner violence in the military needs to be 
approached strategically. This strategic approach should 
involve accountability, care, and be streamlined. Furthermore, 
it should be approached with an understanding of all the 
dynamic factors involved.
    Accountability entails ensuring all military installations 
have memorandum of understanding on file with their local 
civilian law enforcement and support agencies. It appears, from 
just my experience alone, equal efforts need to be given to 
address intimate partner violence that occurs off military 
installations. To my knowledge, not all branches of service and 
military installations have this memorandum of understanding in 
place. At the very least, it could include identifying if the 
parties involved in a domestic dispute are military. There 
should be an automated system that the local authorities can 
reference to validate who are military personnel. Immediately 
following, procedures should be in place of how to contact the 
local military installation is provost marshal office. In 
return, this will ensure it appears on a blotter report for the 
military as a whole, as well as both military police and chain 
of command to have oversight.
    I am well aware that when it comes to jurisdiction in 
certain cases, the type of offense, severity, and monetary 
factors influence who takes jurisdiction. Needless to say, 
oversight needs to be achieved.
    In 1929, the Uniform Crime Report system was developed, 
which is a nationwide program that law enforcement agencies 
report data to on crimes that occur within their jurisdiction. 
This includes crimes reported. Perhaps it should become a 
policy that all provost marshals of the military installation 
be allowed to review that database because if you do not have 
that oversight--and just from my experience alone, working with 
the Killeen Police Department and working with the local 
community, their decision was not to properly investigate. Nor 
do I think that they thought that I deserved any form of 
justice. If I did not go through 3rd Corps or beg and plead for 
the military to take jurisdiction of my case, how would they 
have known?
    So I think that is why I am proposing that a better 
memorandum of understanding be placed for all military 
installations regardless of the branch of service and that the 
provost marshal of the military installations be allowed to 
review these databases.
    What I have noticed is that each branch of service has 
their own central registry for reporting incidents and crimes 
involving domestic violence. They also have their own system 
that is unique to their branch to adhere to what is mandated by 
all DOD regulations. In return, they are each responsible for 
providing the data to the Defense Incident Base Reporting 
System and what is required to the National Incident Base 
Reporting System.
    You cannot win a battle with a lack of accountability, a 
lack of true standardization, and lack of constantly 
streamlining the process. If the Department of Defense can 
collapse logistics information systems of all branches of the 
military into one, they can collapse these databases into one 
so better oversight and accountability can be adhered to.
    One might think how much training is truly needed, but it 
should always be revamped and residual. Training is the only 
way to ensure the quality of care received or influence justice 
rendered.
    What resonates with me the most is the lack of confidence 
expressed from the attorney in the military panel that hears 
certain cases in military court. Perhaps all panelists should 
be subject to training on intimate partner violence and 
dispelling the myths associated with it. This training should 
be compelling, involve storytelling, solicit feedback, and 
encourage engagement in dialogue. Panelists that receive this 
training should be identified by an additional skill identifier 
within the training requirements and resource system. Although 
dispelling myths, combating organizational behaviors and 
culture can prove to be an arduous task, it is not impossible, 
nor should it hinder constant efforts to try. At the very 
least, consider this recommendation so justice can be achieved. 
Clearly you cannot always rely on local law enforcement 
agencies to do that particular job.
    Lastly, at the heart of the matter is the care. I am asking 
that special victims counsel be assigned to all victims of 
intimate partner violence in the military. We have heard of my 
process and how the unit's attorney made it clear she was not 
my direct attorney. The special victim counsel can assist with 
the legal aspects, especially with both the civilian and 
military protective order that should be required. No one 
should be provided a packet and say that is it. Here, go do 
this, go do that. We have to constantly take into account one's 
emotional state, the duration and level of abuse when first 
saying here is a packet. We are living in an information age, 
but given how isolated the abused partner is, they may not have 
direct access to what is needed.
    In addition, it should be required that all spouses of 
military personnel have their own in-processing system on a 
military installation. I can only speak from an Army 
perspective. Perhaps it should be held at the Soldier Family 
Assistance Center. This will eliminate some of the spouses I 
have referenced who did not know where anything was, could not 
tell me what unit their spouse was in. All they could tell me 
was their spouse had the same patch I was wearing at the time. 
How then can we expect them to know the full extent of what 
assistance the Family Advocacy, first responders, and even 
their spouse's units can offer? To eliminate this problem a 
separate in-processing should be performed for all spouses that 
includes Family Advocacy.
    Also, another factor that can be considered is organizing 
the domestic violence groups better so targeted outreach can be 
performed. We are living in changing times with the 
relationship dynamics, preferred gender identification, et 
cetera. Furthermore, I am well aware that civilian spouses are 
offered financial assistance throughout the process and even 
after conviction of domestic violence from the military. 
However, financial assistance was denied to my friend who was 
Active Duty and whose spouse was civilian.
    That is all. Thank you.
    Senator Tillis. Thank you, Ms. McKinley.
    Ms. Vega, so that we can have adequate time for the second 
panel, if you could keep your----
    Ms. Perry. Sorry.
    Senator Tillis. Oh, no. Actually there is no way--you put a 
lot of work into your opening statements. They are obviously 
going to be in the record. And, Ms. Perry, in your particular 
case there are a number of actions that we are taking in our 
office about the specifics of your case. But thank you for your 
testimony. It was very helpful, particularly the suggestions 
for moving forward.
    Ms. Vega?

   STATEMENT OF IRIS VEGA, DOMESTIC VIOLENCE COURT ADVOCATE, 
                DOORWAYS FOR WOMEN AND FAMILIES

    Ms. Vega. Good afternoon, Senators. I want to thank each of 
you for the opportunity to be here and share the experience and 
the stories of the survivors.
    My name is Iris Vega. I serve as the court advocate for 
Doorways for Women and Families, a nonprofit whose mission is 
to create pathways out of homelessness, domestic violence, and 
sexual assault. So my role as the court advocate is to work 
with survivors who come into the courthouse. We work on 
protective orders, safety planning, and child support and 
custody issues. So these are the stories that I will share with 
you today in regards to what they experienced.
    Survivor number one came to the courthouse with her victim 
advocate from the military. And what she explained in her 
statement was that her husband had strangled her on several 
occasions in front of their 9-year-old baby girl that was with 
them. She was scared. She did not know what to do. She reached 
out to the military family victim advocacy who, in return, 
referred her to get a protective order at the civilian court.
    She also had reached out to the commander who was the 
military spouse commander, and he had placed the abusive 
partner out of the home and in the barracks.
    So she pretty much felt very supported through the military 
process. But her challenge was to face the civilian side, which 
was where we were.
    The civilian side, as you know, is not connected with the 
military. There is a big gap in communication there. So when 
the survivor comes in and her abusive partner is in the 
military, there is no way we can know what is happening in the 
military side. We do not know what the commanders have done. We 
do not know what the victim service has done with them. They 
just come with what they tell us. And our judges most of the 
time require proof. Did you call the police? Who is involved? 
Have you told somebody? A lot of the survivors that will come 
in do not have that because there is no communication between 
those two. The commanders are not there to explain what had 
happened. Sometimes the victim advocate would not be there with 
them. They will be by themselves. In this case, she really had 
to retell her story again and again to different people, to the 
judge that was there to try to get that protective order in 
place.
    With a lot of work, she was able to do it. We were able to 
connect her with legal aid so they can represent her with a 
protective order. But the fact that she has to go through so 
many loops to be able to tell her story and get safety nets was 
something that we have to keep providing her with emotional 
support to continue to that process. She was able to secure one 
and able to make out safety in that case.
    Our survivor number two came to us through the hotline. She 
described her husband as having post traumatic stress disorder 
(PTSD) and that he had become increasingly angry towards her 
violently. He would hit the walls, destroy personal property, 
and tell her that if she ever was planning on leaving him, that 
they both would end up dead. So she became very worried for her 
life and safety concerns. Because there was no physical abuse, 
it was very difficult for her to reach out.
    She finally decided to reach out to the--not to the 
commander but the higher ranking from her husband. And he told 
her that this will be taken care of. With time, nothing really 
happened.
    She then reached out to the family advocacy center at the 
military, who gave her resources and told her where to call and 
where to go, but she was expecting more action from them. 
Nothing really happened.
    She decided to take things in her own hand, came to 
Arlington, got a protective order, the preliminary one. But it 
was very difficult again to make it permanent because there is 
no report. There are no police calls. There is no physical 
abuse.
    She strongly believed that the problem was that her husband 
was a sergeant, and that nobody was willing to do anything 
because of that. She felt that she was left alone, that there 
was nobody there to support her in regards to the military 
side.
    But not only that, she also was challenged on our civil 
side because the judge--when we went in front of the judge, he 
looked at her and said, do you know you can ruin his career 
doing this? So it was not about the safety of the survivor. It 
was more about he is a sergeant and you are going to ruin his 
career. So this is the message that she got through everywhere 
that she went, that nobody was going to do something, anything 
because of that.
    She was denied a protective order. It never became 
permanent. We had to do a lot of safety planning. She 
eventually made it out, but it was a long way for her. It was 
not easy. We had to get her into counseling, get her outside 
resources that would be able to help her.
    And this also is the same thing you see over and over 
again. When there is emotional and psychological abuse and you 
do not have a lot of the physical, it is very hard for the 
survivors to even reach out to the commanders, to the advocacy 
center when there is nothing they can show for.
    Survivor number three came to us at the Poor House. She was 
sent there actually by her commander because she was told that 
it would be easier and faster if she would do the protective 
order through the civil side first. She believed strongly that 
the commander did not want to do anything because, in her 
words, they were buddies with her husband, and she felt that he 
did not want to get involved. It was a domestic violence 
situation, and it was between them. So he told her if you get a 
civil protective order, then I can do something in here.
    And for her, she did have a lot of physical abuse. There 
was a lot of pushing to the point that he would grab her by the 
neck, choke her. And when she came to the courthouse, she had 
bruises on her lips and her mouth, and it was very obvious. So 
in her case, it was not difficult to get a protective order 
because you could see it. But in the other cases, it was not 
that easy.
    So once she was able to get that protective order, she took 
it back to the commander and he was able to proceed with that.
    So those are some of the challenges that we see not only in 
these cases but in other cases that we have dealt with. One, 
which is a big one, is the lack of communication between the 
civilian side and the military. That includes CPS [child 
protective services]. It includes nonprofits. Even with the 
victim advocacy center and other advocates that are outside, 
police, judges, there is no connection. A way to break that has 
to be in place.
    Another big challenge that we see--and we have seen it over 
and over again--is the officer's rank. Many of the survivors 
are scared. They said if I go forward with this, he is big, he 
is doing this, his career will be ruined, and I do not want to 
put that in him. And when they do decide to go forward, there 
is very little support in the military for that and very little 
protection for them.
    So based on those challenges we have seen, we think some 
other recommendations would be to be able to put a system in 
place that will be able to facilitate the military and the 
civilian communication at all those different levels.
    The second would be to provide training. We believe so 
strongly that training does make a difference. And the people 
who are in charge, higher ranks, officers, commanders who are 
the ones who are making those decisions right now--and the 
moment that victim, the survivor is calling out and reaching 
out to the military, everybody who is involved, the 
prosecutors, the panelists, everybody who is involved in that 
process needs to be trained, and they need to be trained in 
trauma-informed, and it has to be survivor-centered.
    Once again, collaborating. I think collaboration with the 
outside resources is very important. As we heard in some of the 
cases that we have here today, outside civilian resources 
sometimes make a big difference. So being able to have the 
military connect the survivors with those resources outside, 
knowing what they are, what they are doing, connecting them is 
very important. And I believe that is the only way we can 
continue to nurture the culture that starts by believing that, 
yes, that happened. Start by believing the survivor and having 
a survivor-centered approach to them.
    Thank you.
    Senator Tillis. Thank you, Ms. Vega.
    Ms. Perry and Ms. McKinley, thank you so much for the work 
you put into your opening statements. And we will have those 
for the record.
    And, Ms. Perry, Ms. McKinley, this is the first--once we 
receive your testimony--the first exposure I have had to your 
case, but I am sure that our staff, the committee staff, and 
our offices' staff, will have follow-up questions for you and 
Ms. Perry.
    You touched in your opening statement about Wilson--it is 
impossible for me to call him ``Mr.''--had behaviors that were 
clearly exhibited in Australia and what I consider to be an 
unacceptable disconnect between the commands in Australia and 
back at Camp Lejeune that we are taking a personal interest in 
and we are going to continue to speak with you and try to 
identify how we can prevent that in the future. But we also 
have to hold people accountable for this particular breakdown.
    So thank you all for being here today and for your time up 
here. And I know that this committee is being held because we 
know that you are only two of so many victims, that we need to 
do a better job as we move forward with policies on this 
committee. So thank you very much for your testimony.
    Ms. Perry. Thank you so much.
    Senator Tillis. We are now going to transition to the 
second panel. The panel will consist of Ms. Stephanie Barna, 
the Senior Policy Advisor for the Under Secretary of Defense, 
Personnel and Readiness; Dr. Kenneth Dodge, Pritzker Professor 
of Early Learning, Policy Studies, and Professor of Psychology 
and Neuroscience at Duke University; Casey Taft, Ph.D., 
Professor of Psychiatry at the Boston University School of 
Medicine; and Jacqueline Campbell, Ph.D., Professor of Nursing 
at Johns Hopkins School of Nursing.
    Thank you all for being here. And if we could have your 
testimony limited to about 5 minutes so that we can have 
adequate time for questions. And I am going to take a home 
State prerogative and start with Dr. Dodge.

  STATEMENT OF DR. KENNETH A. DODGE, PROFESSOR IN THE SANFORD 
            SCHOOL OF PUBLIC POLICY, DUKE UNIVERSITY

    Dr. Dodge. Thank you very much for the opportunity to be 
here today.
    I am a clinical psychologist, research scientist, and 
faculty member at Duke University in North Carolina, which is 
proud home to several military bases.
    Since Dr. Henry Kempe first identified the battered child 
syndrome in 1962, most of our Nation's efforts have been 
directed toward protecting battered children after the fact of 
child abuse. This is understandable, but this is a never-win 
situation because the battered keep on coming. So what I want 
to talk with you about is moving upstream.
    We have moved upstream to try to understand how child abuse 
occurs in the first place and how we can prevent it from 
happening, beginning in the very first year of life. We have 
made progress in helping entire communities lower their infant 
abuse rate. I began my work in Durham, North Carolina in 2001. 
Since that date, the population-wide rate of child maltreatment 
in Durham by official statistics has declined by 67 percent.
    We have learned a great deal from scientific research on 
the causes of child abuse and neglect in early life. We have 
learned that one size does not fit all. Some families become 
abusive because of alcohol or opioid or other drug use 
problems. Still other families may be maternal depression or 
domestic violence or family financial instability or maybe for 
a young person, a lack of knowledge about child development and 
parenting skills. We know financial stress causes challenges 
that make the problem worse. For some parents it is the stress 
of a crying baby at 2 o'clock in the morning or in the middle 
of the night. On the positive side, we know what can protect 
families. Social connectedness to families, friends, pastors, 
and professionals can make a difference.
    So these diverse needs tell us that one professional 
intervention will not solve the problem for everybody, but we 
have interventions that can address the needs of different 
families. And so what we really face is an engineering problem. 
How do we understand individual family needs and then direct 
community resources to the right families at the right time, 
not to direct resources to all families when they do not need 
it and not to let families fall through the cracks.
    So we have created the Family Connects approach to 
community child abuse prevention. This program is trauma-
informed. It draws on the work from the National Center for 
Child Traumatic Stress and the Family Assistance Program and 
other good programs.
    Family Connects has three pillars. First, we try to reach 
every family in the community at the time of birth. We go to 
the hospital where the birth occurs. We invite ourselves into 
the home. A trained nurse will have one to three home visits, 
up to seven contacts with the family. She tries to understand 
what that particular family needs. Maybe it is professional 
substance abuse treatment. Maybe it is a parenting support 
group. Maybe it is an emergency housing loan. She then tries to 
connect the family. She does education, universal education on 
sleeping and crying and breastfeeding and a number of other 
areas. And then she also connects the family to their community 
resources that particular family needs.
    The second pillar is if we are going to make these 
community resource connections, we have to align all the 
community resources. In Durham, where I live, we have an 
electronic annotated directory of over 400 community agencies 
that we have rallied and learned about to help families at the 
time of birth. The nurse has this directory at her disposal as 
she works with families.
    The third pillar is an integrated computer data system that 
tracks every family's contacts and progress so that we can be 
efficient in our work, we can hold our staff accountable, we 
can hold agencies accountable, we cannot direct too many 
resources toward one family but spread them out appropriately, 
we can track progress and evaluate the impact of what we do.
    Now, the Family Connects program is brief. It is temporary. 
It is community-wide. It costs about $500 per family for every 
family in a community. Many families use less than that. Some 
families use more, but that is the average.
    Now, we have evaluated the Family Connects impact as 
rigorously as we can. We have had two randomized controlled 
trials, a third field quasi-experiment, a lot of qualitative 
evaluation as well with over 7,000 families in these 
experiments and trials so far. Our published evaluations show 
that the Family Connects program decreases mothers' anxiety, 
increases their confidence, improves parenting, but most 
importantly, it reduces official rates of child abuse in a 
community by one-third. It also reduces injuries and illnesses 
in emergency rooms as detected by official records.
    So we are now disseminating the Family Connects program 
across the Nation. We are working with 28 communities today. We 
plan to grow to several hundred communities. With each new 
community, we learn and we adapt the program. We believe 
military communities such as the Army's Fort Bragg near 
Fayetteville and the Marines? Camp Lejeune in Jacksonville are 
terrific opportunities to promote infant healthy development 
and prevent child abuse. We believe we can lower the child 
abuse rate in these military communities.
    Thank you.
    [The prepared statement of Dr. Dodge follows:]

                 Prepared Statement by Kenneth A. Dodge
    Thank you for the opportunity to speak with you today. I am a 
clinical psychologist, research scientist, and faculty member at the 
Sanford School of Public Policy at Duke University in North Carolina, 
proud home to several large military bases.
    Since Dr. Henry Kempe first identified the battered child syndrome 
in 1962, most of our Nation's efforts have been devoted to protecting 
battered children after the fact of child abuse. This is a never-win 
situation because battered children keep coming. As we all know, even 
in the military, the rate of child abuse is too high and has not 
declined enough in the past several years.
    Recently, the field has moved upstream to understand how child 
abuse occurs and how to prevent it within families in the first year of 
life. We have made progress in helping entire communities lower their 
child abuse rate. Our work began in 2001 in Durham, North Carolina. 
Since that date, the population-wide rate of substantiated infant abuse 
in Durham has declined by over 67 percent.
    We have learned a great deal from scientific research on the causes 
of child abuse and neglect in early life. Abusive parents are not 
necessarily ``evil people'' but rather are struggling due to 
circumstances. A large body of research tells us that every family is 
at risk after the birth of a child, but the particular reason for risk 
varies across families. Alcohol and drug abuse, maternal depression, 
and domestic violence are factors for some parents. Lack of knowledge 
about child development and parenting skills are common. Financial 
stress makes the challenges worse for other families. For some parents, 
the stress of a crying baby in the middle of the night can be 
overwhelming. On the positive side, we know that social connectedness--
to family, friends, neighbors, pastors, and professionals--can protect 
parents from going over the edge.
    These diverse needs tell us that no single intervention will help 
all families. The field does have intervention programs that rigorous 
evaluations have shown are effective for small numbers of families, 
such as the Nurse-Family Partnership and Trauma-Focused Cognitive 
Behavior Therapy. But these programs by themselves do not solve the 
child abuse problem for an entire community. Instead, what we need is a 
system that reaches every family but quickly triages and provides 
different resources to different families. We must identify each 
family's unique needs, address those needs quickly, and match families 
in need with professional community resources. What we need is a system 
of engineering to understand what a family needs and to connect that 
family with the right community resources at the right time. We have 
created the Family Connects approach to solve this problem. It builds 
on three pillars.
    First, we try to reach every family in the community at the time of 
birth through one to three home visits. A trained nurse assesses a 
family's needs, including screening for depression, domestic violence, 
and substance abuse. She provides education in baby feeding, sleep, and 
crying; parent self-care and parenting; and child care. She identifies 
individualized ongoing concerns and connects parents with community 
resources such as professional mental health intervention, parenting 
groups, and breast-feeding consultation.
    The Family Connects program is brief and temporary. The cost 
averages about $500 per family. Many families use less of our time, and 
some use more.
    In order to make these community resource connections, we create a 
second pillar, which is an alignment of community resources. In Durham, 
we have created an annotated electronic directory of over 400 agencies 
that serve families at birth, including eligibility criteria, cost, and 
evidence of effectiveness. The nurse has this directory at her disposal 
when she visits a family.
    The third pillar is an integrated computer data system that tracks 
every family's contacts and progress so that we can be efficient in our 
work, monitor staff performance, and be accountable for implementation 
and impact.
    We have evaluated Family Connects as rigorously as possible, 
through two randomized controlled trials and a third field quasi-
experiment. Our published evaluations show that the Family Connects 
program decreases maternal anxiety and improves parenting. Most 
importantly, it reduces child abuse as indicated by official child 
protective service records and illnesses and injuries at emergency 
rooms..
    We are now disseminating the Family Connects program across the 
Nation. We are working with 28 communities today and plan to grow to 
over 200 communities. With each new community, we continue to learn how 
to adapt the program to particular circumstances and how to improve 
impact. We believe military communities, such as the Army's Fort Bragg 
near Fayetteville, and the Marines' Camp Lejuene in Jacksonville, offer 
both challenges and opportunities to promote infant healthy development 
and prevent child abuse.

    Senator Tillis. Thank you, Dr. Dodge.
    Dr. Campbell?

 STATEMENT OF DR. JACQUELYN C. CAMPBELL, RN, FAAN, PROFESSOR, 
      ANNA D. WOLF CHAIR, JOHNS HOPKINS SCHOOL OF NURSING

    Dr. Campbell. I want to thank the committee for having us. 
I especially want to thank both of you Senators for your 
eloquent, informative opening remarks.
    I am a nurse researcher at Johns Hopkins University School 
of Nursing. I have done research on domestic violence and 
health outcomes for more than 20 years. I was a proud member of 
the congressionally appointed U.S. Department of Defense Task 
Force on Domestic Violence in the military from 2000 to 2003. 
In that role, I was able to travel all over the world and 
observe and listen to domestic violence survivors, domestic 
violence offenders, and those that were trying to deal with 
domestic violence in the military. I learned so much about the 
military and grew to an even greater level of respect and honor 
for all of our armed services at every rank.
    Most of the recommendations that we made as part of that 
Domestic Violence Task Force were adopted by the military. We 
could hear from some of the testimony some of the things that 
are supposed to be put into place. The problem is now, of 
course, implementation, sustainability, continuous evaluation, 
and continuous improvement. That is where I think we have 
fallen down.
    One of the recommendations we made was to conduct a 
systematic population-based, regularly repeated and, 
importantly, totally anonymous survey of Active Duty military 
women and Active Duty military wives, wives of Active Duty 
military men. This was done by the CDC in 2010. It is being 
repeated now in 2016 to 2017. Those results have not yet been 
made public.
    Fortunately, there is good data from that survey about what 
was happening to Active Duty military women. What is 
unfortunate is part of that survey was questions about injury. 
That injury data has never been published. The military has 
taken over on that data and has not allowed CDC to publish it. 
So we do not know how much injury there was to Active Duty 
military women.
    We also know that although it is being repeated now, there 
is not funding from the military to repeat it after 2016 and 
2017. That absolutely has to be done.
    From that data, we learned that the domestic violence 
against Active Duty military women was very similar to the 
amount of domestic violence against civilian women. About 40 
percent of civilian women experienced lifetime physical 
violence, rape, or stalking by an intimate partner, and about 
31 percent of Active Duty military women and 30 percent of the 
wives of Active Duty military men. So very similar percentages, 
and approximately a third of women in the military experiencing 
domestic violence.
    For Active Duty military women that translates to 56,000 
Active Duty military women who have been abused by a partner or 
ex-partner sometime in their lifetime, 40,000 severely 
physically abused women by a partner. And even if we look at 
the past 3 years, which the rates are lower--and that is 
similar to civilian women--21,000 abused in the past 3 years, 
9,000 severely abused Active Duty military women in the past 
year and 6,000 of the even more severe, repeated physical 
violence or sexual assault. And that is every year.
    We must use that data intelligently to develop policy and 
to do further research on what is reported and what is not 
reported to the military. We know that officially reported 
domestic violence is far lower than the actual domestic 
violence just like we know that about sexual assault.
    What is missing from the NISVS [National Intimate Partner 
and Sexual Violence Survey], as it is called in CDC, as I 
mentioned, is the health outcomes of domestic violence for 
Active Duty military women. And we have new science, as Senator 
Gillibrand mentioned, about traumatic brain injury that happens 
to abused women in the civilian world. We need to apply this 
new knowledge to domestic violence victims in the military, as 
well as to our soldiers that are injured by blast injuries and 
our athletes. This is one of the long-term health outcomes of 
domestic violence that we are beginning to discover. We have 
known for a long time that women who are abused by their 
partners have long-term neurological problems. What we did not 
know is why. What we know now from new data--my team published 
it in 2017. We have some data from Eve Valera at Harvard 
showing definitively that women who are beaten in the head or 
have facial injuries, hit in the eye, hit in the ear, fractured 
jaws--I always make the analogy. We know what happens to boxers 
over time. And domestic violence victims are repeatedly hit in 
the face, repeatedly hit in the head, and they are also 
strangled, as was mentioned.
    Ms. Vega talked about the woman who was strangled by her 
partner in front of their 9-year-old daughter, and what was 
recommended to her was a protective order. Important, yes, but 
what about medical care for that strangulation? We know that 
strangulation leads to long-term brain injuries. And what about 
counseling for that 9-year-old? That is also incredibly 
important so that we can prevent these children that are so 
often exposed to domestic violence both in the military and 
outside from having that cumulative trauma that we know is so 
important in terms of increasing the risk of them using 
violence in their adolescent and adult relationships.
    We know now that we have to heal from that trauma, as well 
as teach kids to do better, that it is not just cognitive 
reasoning that makes the difference in whether or not people 
use violence. It is also if they have had cumulative trauma. 
What that does to the brain--we know much more about that.
    We also have really good science now in terms of how to 
treat people with traumatic brain injury (TBI) in the military. 
We do a great job of treating with the most advanced 
neurological techniques our blast injury victims in the 
military who have TBI. We do not do the same for our Active 
Duty military women who have TBI from domestic violence. So we 
need to routinely screen in all of our Active Duty military 
health facilities for those experiencing domestic violence. We 
need to do it in a way--and as was talked about in terms of 
restricted referrals versus non-restricted reports to military 
command, all of that is useful, but we need to be sure to be 
screening not for just present domestic violence, but for past 
domestic violence. These neurological problems last long after 
someone has left an abusive relationship.
    We heard from an incredibly brave, smart, resourceful 
victim of domestic violence. And I always wonder how well they 
have been treated for those long-term medical problems. And we 
heard about hers in terms of requiring surgery, et cetera. As 
soon as we find a victim of domestic violence in an Active Duty 
military setting, we need to make sure that we are using a 
traumatic brain injury screen.
    There is a modified screen that Kathleen Iverson, who is in 
the VA [Department of Veterans Affairs], has used with veteran 
women where women can disclose whether or not they have had a 
strangulation event and whether or not they have had these 
kinds of head injuries that would lead to traumatic brain 
injury. And again, it is those repeated blows to the head and/
or strangulation. That is the issue. We can use those to screen 
for TBI amongst women, and we can use those to decide how to 
best provide treatment for those women for the traumatic brain 
injury.
    My last note is, first of all, in terms of the other kind 
of injury that we too often incur for both civilian and 
military women and that is gunshot injuries. What we know now 
in terms of--the person we know of is the Texas shooter was so 
egregiously violent toward his wife in the military that he was 
sentenced to a year in the brig. That is really serious 
domestic violence for that to happen. And yet, the record of 
that domestic violence did not get into the background check 
database. And he legally obtained a firearm. We talk about the 
bill. We talk about fix NICS [National Instant Criminal 
Background System]. It is not going to fix that problem. We 
have to look at that very carefully in terms of how that would 
be allowed to happen to make sure it never happens again.
    And as I mentioned, in terms of prevention, those kids that 
are witnessing domestic violence in terms of treatment for 
their trauma so that they do not go on to be using domestic 
violence as they grow older.
    Thank you.
    Senator Tillis. Thank you, Dr. Campbell.
    Dr. Taft?

STATEMENT OF DR. CASEY T. TAFT, PROFESSOR OF PSYCHIATRY, BOSTON 
                 UNIVERSITY SCHOOL OF MEDICINE

    Dr. Taft. Good afternoon, Chairman Tillis, Ranking Member 
Gillibrand, and Members of the Subcommittee. Thank you for the 
opportunity to discuss my observations on domestic violence in 
the military.
    I am appearing today on behalf of Boston University School 
of Medicine and not on behalf of the Department of Veterans 
Affairs.
    The focus of my work is on understanding how domestic 
violence develops in servicemembers and veterans and in 
developing evidence-based programs to prevent or end that 
violence. My programs focus on those engaging in domestic 
violence or those who are at risk for violence.
    Trauma and PTSD are among the strongest risk factors for 
domestic violence. When a servicemember has PTSD, their 
domestic violence risk increases threefold. When a 
servicemember does not have PTSD, their violence rates are 
virtually the same as in civilians. In other words, existing 
data suggests that it is the trauma and PTSD that most strongly 
drives the risk for domestic violence, not preexisting violent 
tendencies in those who join the military.
    However, it is also critical to understand that PTSD does 
not cause domestic violence. It only increases risk. Although 
PTSD is related to higher violence risk, most of those with 
PTSD are not domestically violent. In other words, we must not 
think of violence as a symptom of PTSD or something that is 
inevitable. Those who engage in domestic violence ultimately 
make a choice to be violent and are responsible for their own 
behavior.
    To better understand how trauma increases violence risk, it 
is helpful to consider how trauma can alter how we respond in 
social situations. When in a war zone or dangerous area, the 
servicemember may be extremely alert to threat and learns to 
see threats that others do not see. This is obviously adaptive 
in a war zone, but when the servicemember returns home, they 
may be more likely to develop a mindset where they assume that 
others have hostile intentions towards them. They may begin to 
falsely assume that their partner is trying to push their 
buttons, is cheating on them, or trying to do them harm in some 
way. When one assumes the worst in their partners, they will be 
more likely to engage in controlling and abusive behavior.
    Servicemembers exposed to trauma report that their 
experiences have changed the ways that they view the world. For 
example, virtually every violent servicemember I have worked 
with describes difficulty trusting others. This difficulty 
trusting may be due to observing people harming others in the 
war zone or perhaps they felt betrayed or did not know whom 
they could trust during their traumatic experiences. These 
feelings of mistrust can often carry over into intimate 
relationships and are often a precursor to coercive and 
controlling behavior.
    Power and control themes are also important with 
servicemembers exposed to trauma. Perhaps they felt powerless 
while exposed to trauma and they attempt to exert power and 
control in their home environment that they did not have during 
their trauma. They may also use more dominating forms of 
communication that are effective in a military context but not 
in the home context.
    We need to take a trauma-informed approach when working 
with those who engage in domestic violence, meaning that we 
discuss the role of trauma throughout the entire intervention 
process. Trauma-informed care is standard in every other area 
of intervention, but the domestic violence field has been slow 
to adopt it, even with military populations for which trauma 
takes on particular importance.
    Some worry that by taking a trauma-informed approach, we 
are excusing abusive behavior. In fact, when we listen to the 
stories that servicemembers tell about their trauma, it lowers 
their defenses and they open up and take greater responsibility 
for their abuse. If we listen to their stories, they will join 
with us and work to end their abusive behavior. We can and 
should talk about the role of trauma in abusive behavior, while 
emphasizing accountability and personal responsibility at the 
same time.
    This is not just my theoretical speculation. Through 
funding from DOD, CDC, VA, and the Bob Woodruff Foundation, my 
team has developed and implemented the Strength at Home 
programs, trauma-informed group therapy programs to prevent and 
end domestic violence. These are the only programs demonstrated 
effective for veterans and servicemembers through randomized 
controlled trials. So we now have good evidence that a trauma-
informed approach is the best way forward to prevent and end 
domestic violence in servicemembers at risk.
    I believe that the military response to domestic violence 
is far ahead of the civilian response. Through their Family 
Advocacy Programs, DOD uses a coordinated community response to 
deal with the problem and has a system for identifying abusive 
behavior and getting folks the help that they need. DOD 
standards for best practices to deal with domestic violence are 
also well thought out and trauma-informed, and that is what 
Jackie was just referring to where she was an important part of 
that process.
    One recommendation that I have is that DOD adopt a system 
where they identify only trauma-informed programs truly shown 
to be effective to prevent and end military domestic violence 
through clinical trials and work to consistently implement 
these programs across DOD. Currently there are some programs on 
installations that do not meet this standard. This approach 
would ultimately benefit military families who experience 
domestic violence.
    Mr. Chairman, thank you again for the opportunity to 
testify, and I would be pleased to answer any questions.
    Senator Tillis. Thank you, Mr. Taft.
    And Ms. Barna, I want to thank you and Secretary Wilkie for 
having you here.

  STATEMENT OF STEPHANIE BARNA, SENIOR POLICY ADVISOR, UNDER 
         SECRETARY OF DEFENSE, PERSONNEL AND READINESS

    Ms. Barna. Chairman Tillis, Ranking Member Gillibrand, and 
Members of the Subcommittee.
    The Department of Defense is committed to preventing and 
responding to domestic abuse, intimate partner violence, and 
child abuse and neglect in the military community.
    On behalf of Mr. Wilkie, the Under Secretary of Defense for 
Personnel and Readiness, and the cadre of dedicated and expert 
professionals who comprise the DOD family advocacy team, I 
appreciate the opportunity to appear before you today to 
discuss the Department's coordinated community response to 
preventing, identifying, and responding to domestic abuse, 
child abuse and neglect.
    The testimony of Mrs. Perry and Ms. McKinley and Ms. Vega 
was both heart-wrenching and deeply concerning from our 
perspective. I want each of you to know how much I respect the 
courage that you have demonstrated over time and here today in 
testifying in pursuing care and justice for those that you 
love, for yourself, and in the case of Ms. Vega, for those she 
has committed to protect and assist. I deeply appreciated the 
opportunity hear what you have to say, and I can assure you 
that the Department will work with this committee to be 
responsive to the issues that you have raised in your 
testimony.
    To the members of this committee, I look forward to taking 
your questions and to the discussion.
    [The prepared statement of Ms. Barna follows:]

               Prepared Statement by Ms. Stephanie Barna
    Chairman Tillis, Ranking Member Gillibrand, and Members of this 
distinguished Subcommittee, the Department of Defense (DOD) is 
committed to preventing and responding to domestic abuse/intimate 
partner violence and child abuse and neglect in the military community. 
On behalf of Mr. Robert Wilkie, the Under Secretary of Defense for 
Personnel and Readiness, and the cadre of dedicated and expert 
professionals who comprise the DOD Family Advocacy Program team, I 
appreciate the opportunity to appear before you today to highlight the 
Department's efforts to keep our families and children safe and 
healthy. Our sincere thanks to you for your continued, stalwart support 
of programs that help our servicemembers and their families stay strong 
and resilient.
    Although domestic abuse and child abuse and neglect are serious 
national public health issues, the Department is committed to a 
military culture in which domestic abuse and child maltreatment \1\ of 
any kind are not tolerated, condoned, or ignored. The welfare and well 
being of our servicemembers and their families are imperative to the 
readiness of our force. In addressing domestic abuse and child abuse 
and neglect, we use a comprehensive approach that promotes awareness, 
highlights prevention, emphasizes early intervention, mandates timely 
reporting, and utilizes evidenced-based tools to support response and 
treatment.
---------------------------------------------------------------------------
    \1\ ``Child maltreatment'' is an umbrella term encompassing both 
child abuse and child neglect.
---------------------------------------------------------------------------
overview of the department's approach--a coordinated community response
    Central to the DOD strategy for addressing the multidimensional and 
complex nature of domestic abuse and child maltreatment is the 
coordinated community prevention and response model, a best practice 
adopted from the civilian sector. This model employs the comprehensive 
resources of a servicemember's command, medical, military law 
enforcement, legal, the chaplaincy, civilian child protective services 
(CPS), and other community-based resources to prevent, identify, and 
respond to family violence, abuse, and neglect. This dynamic approach 
recognizes that, depending on the circumstances, multiple, simultaneous 
responses to an incident are necessary and beneficial. Each component 
of the coordinated community response effort contributes to the shared 
mission of ensuring the safety and welfare of servicemembers and their 
families. At the same time, each component is charged to execute its 
own unique, but equally important mission. Any element of the 
coordinated community response network may receive a report of an 
incident of domestic abuse or child maltreatment; receipt of such a 
report ``lights up the system,'' initiating reciprocal reporting to 
other members of the coordinated community response and signaling each 
member to respond to the report as appropriate to its unique mission 
and functions. For example, a child abuse allegation involving a 
servicemember or family member would involve mandatory reporting to 
civilian CPS, which would determine if the allegation meets its 
threshold for investigation and intervention. Every child abuse 
allegation also mandates a report to military law enforcement, which 
determines if law enforcement action, or action by a military criminal 
investigative organization is required, with the possibility of 
referral to the military Staff Judge Advocate or other legal counsel 
action that may include criminal prosecution or other disciplinary or 
adverse administrative action. The allegation is also reported to the 
servicemember's commander, who determines how the command can best 
support the family and what actions should be taken to hold the 
offender accountable. Finally, the allegation is reported to the 
Department's Family Advocacy Program for immediate assessment and to 
ensure victim safety, determination as to whether the incident meets 
the Department's definition of child abuse or neglect, and the delivery 
of support and clinical services to both the victim and the offender, 
as may be appropriate given the individual facts and circumstances of 
the case.
    These same actions occur when a domestic abuse allegation is 
received, \2\ unless the victim has elected to make a ``restricted 
report.'' The option of restricted reporting is provided to adult 
victims of domestic abuse who wish to receive medical services, 
clinical counseling, and victim advocacy support, but do not wish the 
chain of command or law enforcement to become involved. It is important 
to note that ``restricted report'' procedures are not available with 
regard to allegations of child abuse or neglect.
---------------------------------------------------------------------------
    \2\ Except for reporting to civilian CPS, which occurs only in 
cases involving children.
---------------------------------------------------------------------------
    Coordinated community response partners work together--through 
parallel, but distinct processes. We believe that when each partner 
focuses on fulfilling its own critical mission, the Department achieves 
a holistic system of prevention and support. For example, while FAP 
provides treatment and support to victims, law enforcement is working 
to investigate the matter. This separation of functions and lines of 
effort ensures that FAP can maintain its primary focus on ensuring 
victim safety; providing clinical services to reduce and mitigate 
victim trauma; and supporting family re-stabilization, as appropriate; 
meanwhile, law enforcement and legal personnel can apply their efforts 
and expertise to investigating criminal allegations and prosecuting 
offenders, as warranted.
                      the family advocacy program
    The keystone of the Department of Defense's response to domestic 
abuse and child maltreatment is the Family Advocacy Program. The 
Department's FAP program is designed solely to prevent and address 
domestic abuse and child abuse and neglect in military families. The 
Department of Defense FAP office is the policy proponent for prevention 
and response to domestic abuse and child abuse and neglect. FAP 
services are provided through the Military Service FAPs, which foster 
awareness of the program across their Service; train leaders, 
servicemembers, and their families; and implement initiatives geared to 
preventing domestic abuse and child abuse and neglect. Each Military 
Service FAP coordinates with CPS, ensures adult and child victim 
safety, provides victim advocacy and support, and manages the Incident 
Determination Committee (IDC) process for determining if an incident 
meets the clinical threshold for intervention services and recording in 
the FAP Central Registry--a database for tracking trends across DOD.
    Importantly, the Family Advocacy Program recognizes that there 
exist unique, military-specific factors that may contribute to domestic 
abuse and child abuse and neglect incidents, and provides military-
specific support and services to servicemembers and their families. The 
Family Advocacy Program's 5-year Strategic Prevention Plan establishes 
a common direction for abuse and neglect prevention efforts across the 
Department.
                             fap oversight
    To ensure consistency in the implementation of the FAP across the 
Military Services, DOD FAP provides oversight of Service FAP programs, 
policies, and procedures, through a comprehensive FAP Oversight 
Framework. The objective of the FAP Oversight Framework is to ensure 
that all 3 Military Departments, for the four Military Services, 
implement and execute a comprehensive FAP--across the domains of 
prevention, response, reporting, intervention, treatment, advocacy, 
risk management, and safety planning. The goals of the framework are 
twofold: compliance, to ensure the Military Services are complying with 
applicable law, regulation, and policy; and evaluation, to confirm that 
Service FAP programs and efforts meet the high standards established by 
Congress, DOD, and the Service's own regulations and policies. 
Oversight also includes standardization of processes and procedures, 
management of research activities, evaluation of the research results, 
implementation of the evidence-based programs, and to the extent 
possible, emphasis on the utilization of metrics as the basis for 
program compliance and evaluation.
    The framework is designed to allow for some customization by each 
Service, as may be appropriate to address unique Service-specific 
factors, and to fit best with Service identity and culture. Most 
importantly, the FAP Oversight Framework ensures that prevention 
efforts are focused on identified risk and protective factors; that 
clinical assessment and treatment protocols utilizes the best, 
evidence-based models; that awareness and education campaigns are 
military-specific; and that victim advocacy is guided by the most 
current best practices in addressing victim safety and reduction of 
risk.
                              fap process
    In general, the FAP reporting and response process begins when FAP 
receives an allegation that an incident of domestic abuse or child 
abuse or neglect has occurred. The report may come to FAP directly 
(such as from the victim or neighbor who may have observed the 
incident) or may be forwarded to FAP from another coordinated community 
response partner (such as law enforcement, the chain or command, or a 
medical care provider). If the incident involves a child, FAP notifies 
CPS, military law enforcement, and the commander of the member's 
military unit (presuming that these coordinated community response 
partners have not already been notified). If physical injury is 
involved, FAP makes a referral for medical assessment and treatment, as 
well. A FAP clinician responds and performs an assessment to ensure the 
safety of the victim and all other family members and to gather 
clinical information to determine immediate support needs. 
Concurrently, the member's command, military law enforcement, and CPS 
execute their respective processes.
    Within 30 days of the incident report, the Service FAP IDC will 
meet and employ a rigorous and quantifiable evidence-based tool, called 
the Decision Tree Algorithm, to determine if the incident meets the 
clinical threshold for abuse. If the IDC determines that an incident 
``meets criteria,'' the case is referred to a clinical case review 
team, which develops an intervention plan. Even if the IDC determines 
that the incident does not meet the clinical threshold for abuse, but 
that risk factors for potential abuse are present, appropriate 
intervention services will be offered to the servicemember and family.
    When an allegation of domestic or intimate partner abuse is 
received, the victim is immediately offered the services of a domestic 
abuse victim advocate. Otherwise, the notification process is the same 
as set forth above, except that civilian CPS is not notified. Victims 
of domestic and intimate partner abuse may elect to file a ``restricted 
report,'' however. When a victim elects to file a ``restricted 
report,'' the command and law enforcement are not notified, but all 
other medical and victim advocacy support services are provided.
Child Abuse
    The Department's definitions of child maltreatment and its policies 
for preventing and responding to child abuse and neglect are fully 
aligned with the federal Child Abuse Prevention and Treatment Act. In 
accordance with the Act, prevention, public awareness, training, 
reporting, and treatment are addressed in comprehensive Department 
policies. Identification and reporting are considered the 
responsibility of all servicemembers, family members, and individuals 
in a servicemember's chain of command. By law, covered professionals 
(i.e., FAP staff, military law enforcement and criminal investigative 
personnel, medical personnel, child care givers) are required to report 
directly to the appropriate civilian CPS agency and to FAP any 
information that gives reason to suspect that a child in the family or 
home of a servicemember has suffered an incident of abuse or neglect. 
And, on June 12, 2017, the Department implemented section 575 of the 
National Defense Authorization Act for fiscal year 2017, to mandate 
reporting to FAP, by any individual within a servicemember's chain of 
command, of any credible information of child abuse or neglect in a 
military family.
Domestic Abuse
    In order to assist the Department in improving its response to 
domestic violence, section 591 of the National Defense Authorization 
Act for fiscal year 2000 required the Secretary of Defense to establish 
the Defense Task Force on Domestic Violence. From 2000 to 2003, the 
Task Force conducted a comprehensive review of the Department's efforts 
to address domestic violence, and generated recommendations that today 
remain embedded in prevention and response processes across the 
coordinated community response. A key enhancement to the Family 
Advocacy Program was the addition of domestic abuse victim advocates to 
provide early engagement and support of domestic abuse victims in a 
confidential environment.
    A victim's decision to report domestic abuse can be a complicated 
and traumatic choice, as some victims of domestic abuse may elect to 
stay in the relationship with the offender. The Department has long 
acknowledged that the stigma and victim re-traumatization often 
associated with law enforcement and command involvement in responding 
to domestic abuse were powerful disincentives to reporting; yet a 
victim who declined to report had little hope of receiving necessary 
treatment, care, and support. With a view to resolving this conundrum 
in favor of caring for victims, the Department introduced the 
``restricted reporting'' option for adult victims of domestic abuse.
    A ``restricted report'' is an option for adult victims who do not 
want an official investigation of the incident. Victims of domestic 
abuse who desire to make a ``restricted report'' must report the abuse 
to one of the following specified personnel: a victim advocate, a 
healthcare provider, or a FAP clinician or supervisor. Restricted 
reporting ensures that every victim has access to medical care, 
clinical counseling, support, and victim advocacy services, even if 
that victim does not wish to pursue law enforcement or command actions 
against the offender. The victim always retains the option to change 
the report to ``unrestricted,'' at which time the law enforcement and 
the command would be engaged. ``Restricted reporting'' gives adult 
victims additional time to consider reporting the domestic abuse 
incident to law enforcement or the command, while benefiting from 
receiving relevant information, treatment, and support. DOD policy 
requires a response that is respectful of the victim's personal 
relationship decisions and choice of reporting options.
                              fap support
    The Department is committed to providing services that address 
victim safety, respect victim rights, and support stabilizing the 
family as a unit, when indicated. Department policy, updated in April 
of 2017, addresses both standards of competence for all victim 
assistance personnel and standards of service--all of which are 
consistent with national victim assistance standards, while remaining 
cognizant of the unique needs of the military community. Although many 
partners in the coordinated community response model designate victim 
advocates, Service FAP clinicians and FAP domestic abuse victim 
advocates are assigned specifically to respond to victims of domestic 
abuse at the installation level. FAP clinicians are licensed clinical 
providers who offer services and support to domestic abuse victims and 
to abusers, as well as to children affected by domestic abuse. 
Clinicians conduct psycho-social assessments, risk assessments and 
safety planning, develop treatment plans, and provide clinical 
services. Clinical treatment aims to support the victim, mitigate the 
impact of the abuse, and assist the abuser in ending the abusive 
behavior. FAP domestic abuse victim advocates are available 24-hours a 
day and work directly with victims, provide ongoing safety assessments, 
and when needed, accompany victims to court to secure protective 
orders, all with a view to reducing the risk of re-offense and 
promoting victim and family safety and victim empowerment. Victim 
advocacy services are offered to victims with the goal of ensuring that 
victims are actively involved in all aspects of their safety and 
service plans. FAP clinicians and domestic abuse victim advocates 
assess risk and safety on a continual basis while providing services to 
victims, to include any safety planning and referrals to civilian 
resources or Veterans Affairs if a victim leaves the military system. 
The Department is committed to ensuring an appropriate and timely 
response to victims and has initiated the development of a staffing 
model to ensure that an adequate number of trained FAP clinicians and 
victim advocates are always available for this purpose.
    FAP is designed to be both preventive and rehabilitative in nature, 
and to facilitate clinical treatment for both victims and offenders. 
FAP clinical cases are closed as either ``resolved'' or ``unresolved'' 
based on FAP assessment of victim safety and security and FAP 
determinations of the likelihood of offender recidivism. It is 
important to note that under the coordinated community response model, 
FAP does not conduct criminal investigations of domestic abuse or 
neglect, has no role in disciplinary action against servicemembers 
found to have engaged in criminal or inappropriate conduct, and does 
not track adjudication of cases by law enforcement, the command, or the 
judicial system. Under the coordinated community response model, these 
other processes are the sole responsibility of Military Service law 
enforcement and military criminal investigative organizations, lawyers, 
the commander, and duly empowered judges. Under the coordinated 
community response model, these other process are separate from FAP, 
although law enforcement investigations, command-imposed discipline, 
and criminal prosecutions may be conducted in parallel to FAP 
processes.
    The important distinctions between FAP and these other processes 
notwithstanding, FAP clinicians and victim advocates work regularly 
with the chain of command to provide information about what the 
commander can do to protect and assist the victims of abuse. FAP also 
works with Staff Judge Advocates and other legal counsel to refer 
victims who qualify for assistance through the Special Victim 
Investigation and Prosecution Counsel services.
    The Department places specific emphasis on primary and targeted 
prevention activities, to include promoting awareness of signs, 
symptoms, and risk factors associated with domestic abuse and child 
maltreatment, as well as the treatment and rehabilitative services FAP 
provides. Department policy requires Service FAPs at the installation 
level to promote public awareness of the FAP program, and to provide 
training and education to commanders, senior enlisted advisors, 
servicemembers and their families, DOD civilian employees, and 
contractors about domestic abuse and child abuse and neglect, and on 
the services and support available through FAP. The Department also 
endeavors to strengthen family functioning and resilience by promoting 
the protective factors that serve as buffers to abuse, including 
building and sustaining safe, stable, and nurturing family 
relationships. Training activities in this vein include information and 
classes to assist servicemembers and their families in strengthening 
their relationships, building parenting skills, and adapting 
successfully to military life.
data collection/reporting and trends in domestic abuse and child abuse 
                              and neglect
    Data collection is critical to the Department's efforts to track, 
identify, and understand domestic abuse and child abuse and neglect 
trends, with a view to informing future prevention and response actions 
and initiatives. The FAP Central Registry captures demographic and FAP-
specific clinical data on domestic abuse and child abuse and neglect 
incidents that a Service FAP Incident Determination Committee found to 
``meet criteria'' for abuse or maltreatment.
    It is important to note that measures of accountability (such as 
command action), law enforcement data, and legal dispositions related 
to domestic abuse and child maltreatment cases are deliberately tracked 
via mechanisms separate from the FAP Central Registry. The Department 
believes that co-mingling accountability, law enforcement, and legal 
disposition data with FAP clinical data, could have significant adverse 
consequences and unintended second- and third-order effects. If every 
report or referral to FAP is perceived to require a follow-on 
investigative, legal, or command disciplinary action, we are likely to 
experience a decrease in self-reporting and participation in treatment 
for both victims and offenders, as well as a decline in command 
referrals for preventive intervention. Similar to the situation that 
existed prior to the Department's introduction of the ``restricted 
reporting'' option for adult victims of domestic abuse, because a 
victim of domestic abuse may choose to stay in the relationship with 
the offender, the perception that seeking help through FAP is 
inevitably associated with command or legal action that may threaten 
family integrity or adversely affect an offender's military career 
could make a victim reluctant to seek help through FAP, and in the 
process, deprive that victim of necessary care, support, and advocacy 
services.
Child Abuse and Neglect
    Department policy defines child abuse and neglect [together called 
``child maltreatment''] for military families as follows: ``The 
physical or sexual abuse, emotional abuse, or neglect of a child by a 
parent, guardian, foster parent, or by a caregiver, whether the 
caregiver is interfamilial or extra familial, under circumstances 
indicating the child's welfare is harmed or threatened. Such acts by a 
sibling, other family member, or other person shall be deemed to be 
child abuse only when the individual is providing care under express or 
implied agreement with the parent, guardian, or foster parent.''
    Although the victimization rate for child abuse and neglect per 
1,000 military children (5.1 in fiscal year 2016) is approximately half 
that of the civilian sector (9.1 in fiscal year 2016 \3\), DOD is 
committed to doing all it can to prevent any occurrence of child abuse 
or neglect in our military families. To this end, DOD provides FAP 
services across the Military Services through licensed clinical 
providers, domestic abuse victim advocates, New Parent Support Home 
Visitors, and expert prevention staff.
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth, and 
Families, Children's Bureau. (2017) Child maltreatment 2016. Available 
from: https://www.acf.hhs.gov/cb/resource/child-maltreatment-2016
---------------------------------------------------------------------------
    In fiscal year 2016, there were 13,916 reports to FAP of suspected 
child abuse and neglect. Approximately half of those incidents (6,998) 
met the DOD clinical criteria for child abuse and neglect. These ``met 
criteria'' incidents involved 4,960 unique child victims. Child neglect 
was the largest category, accounting for nearly 59 percent of these 
``met criteria'' incidents. Approximately 4 percent of ``met criteria'' 
child abuse incidents involved sexual abuse.
    Between fiscal year 2009 and fiscal year 2014, the Department 
observed a slight year-to-year upward trend in the rate of incidents of 
child maltreatment that ``met criteria.'' To address this trend, DOD 
and the Military Services initiated targeted prevention and research 
efforts and subsequently implemented programs to target specific risk 
factors. Some of these programs were focused on preventing infant head 
trauma related to abusive shaking, strengthening father-child bonding, 
decreasing distracted parenting, and creating safe sleeping 
environments to prevent child suffocation. We continue to administer 
these prevention programs diligently, and it is important to note that 
this slight upward trend in incidents has not continued in recent 
years. As compared to fiscal year 2014, the rate of ``met criteria'' 
child maltreatment incidents decreased slightly in both fiscal year 
2015 and fiscal year 2016.
Domestic Abuse
    The Department defines domestic abuse, which includes domestic 
violence, as ``a pattern of behavior resulting in emotional/
psychological abuse, economic control, and/or interference with 
personal liberty that is directed toward a person who is a current or 
former spouse; a person with whom the abuser shares a child in common; 
or a current or former intimate partner with whom the abuser shares or 
has shared a common domicile.'' DOD policy distinguishes two types of 
adult victims under the category of domestic abuse: spouses and 
intimate partners. Spouse abuse involves an incident in which either 
the victim or offender may be an Active Duty servicemember or the 
civilian spouse of an Active Duty servicemember. Intimate partner abuse 
is defined as an incident in which either the victim or offender may be 
an Active Duty servicemember or civilian partner who is ``a former 
spouse, a person with whom the victim shares a child in common, or a 
current or former intimate partner with whom the victim shares or has 
shared a common domicile.'' Individuals who experience sexual assault 
and fall outside of the definition of intimate partner receive services 
through the Department's Sexual Assault Prevention and Response program
    In fiscal year 2016, FAP received 15,144 reports of suspected 
spouse abuse. Approximately half of those incidents (7,651) met the DOD 
criteria for domestic abuse. These ``met criteria'' incidents involved 
6,033 unique spouse victims. The fiscal year 2016 rates of spouse abuse 
reporting and ``met-criteria'' incidents do not indicate significant 
increases when compared to the past decade. In fiscal year 2016, there 
were 1,022 incidents of ``met criteria'' intimate partner abuse, 
involving 847 unique victims. Unlike child abuse and neglect, for which 
there exist federal definitions and standards, and which are tracked 
nationwide through the Department of Health and Human Services, there 
is no standard or centralized mechanism in the civilian sector to track 
civilian rates of domestic abuse for comparison to the military 
population. This is due, in part, to the fact that each state has 
different laws and definitions of domestic abuse, which makes tracking, 
aggregation, and comparison of incidents difficult, if not impossible.
                        initiatives and programs
    Although the Department considers our prevention and response 
actions to be comprehensive, we recognize that, much like sexual 
assault and suicide, domestic abuse and child abuse and neglect present 
human factor challenges that require continuous and persistent efforts 
to train and educate our leaders, servicemembers, and families, and to 
improve the effectiveness and responsiveness of our system.
    Notably, DOD is partnering with the University of California Los 
Angeles/Duke and the National Child Traumatic Stress Network to train 
FAP clinicians and home visitors on trauma-informed care in the 
military setting. DOD FAP is also collaborating with the National 
Center on Shaken Baby Syndrome to deliver standardized training to new 
parents to cope with periods of inconsolable infant crying. In 
addition, we collaborate across all four Services and leverage the 
resources of Military OneSource, the Department's 24-7/365 virtual 
family support information and referral service, to sustain 
standardized public awareness messages and provide direct access to 
resources that encourage servicemembers and families to seek help early 
and often.
    Further, DOD is leading several ongoing initiatives to strengthen 
our FAP processes. The scope and breadth of these ongoing initiatives 
are significant. Once brought to fruition, these initiatives will 
affect policies and processes both internal and external to the DOD: we 
are working with expert academic partners to develop cutting-edge 
clinical tools to aid FAP clinicians in risk assessment and safety 
planning; and we are engaging in concerted efforts to inform state 
lawmakers of the benefits of requiring reciprocal reporting to FAP by 
their state civilian CPS agencies, of child abuse and neglect 
allegations involving military families. Finally, the Department is 
sponsoring numerous research projects to develop new evidence-based 
tools and processes that will enable FAP to better determine risk and 
protective factors associated with domestic abuse and child abuse and 
neglect, and to enhance the effectiveness of abuse prevention and 
response training for commanders, leaders, and first responders.
    A brief discussion of some of the Department's major initiatives 
and programs follows:
Child Abuse and Neglect and Domestic Abuse Integrated Project Team
    In 2013, the Undersecretary of Defense for Personnel and Readiness 
directed a comprehensive review of all components of the coordinated 
community response to domestic abuse and child maltreatment. Two Rapid 
Improvement Events resulted in the identification of 37 recommendations 
warranting focused attention. An integrated project team of senior 
executives and leaders tracked the assessment of these issues. As of 
2018, all 37 of the recommendations have been addressed or implemented, 
resulting in improvements across all elements of the coordinated 
community response system.
Incident Determination Committee (IDC)/ Decision Tree Algorithm (DTA)
    The purpose of the IDC, an evidence-based approach designed by 
researchers from New York University (NYU), with sponsorship by the 
Department of the Air Force, is to determine whether reports of 
suspected domestic abuse or child abuse and neglect meet the DOD 
definitions of abuse, and thereby must be documented in the FAP Central 
Registry. This decision is known as the incident status determination 
(ISD). All incidents of alleged abuse or neglect must be presented to 
the IDC.
    The IDC uses a DTA, also developed by NYU, which was developed and 
rigorously tested prior to its implementation DOD-wide. The DTA process 
provides the IDC with clear and consistent descriptors of the acts and 
the impact on the victim, which in conjunction determine whether the 
incident ``meets criteria'' for abuse or neglect. In child sexual abuse 
and domestic abuse related sexual assault, the determination as to 
whether an incident ``meets criteria'' is based solely on the act. The 
DTA provides a consistent, Department-wide process and criteria for 
assessing incidents of domestic abuse and child abuse and neglect.
Incident Severity Scales
    The Incident Severity Scale is an evidence-based algorithm 
developed by researchers at NYU to accurately determine the level of 
severity of an incident of domestic abuse or child abuse or neglect. 
Historically, abuse and maltreatment incident severity ratings were 
based on the FAP clinician's individual clinical judgment. Given the 
potentially significant effects of abuse on victims and the 
implications for an offender's rehabilitation, FAP committed to 
ensuring that its evaluations of incident severity were evidence-based 
and implemented the Incident Severity Scale's proven algorithm to 
enhance the accuracy and consistency of its assessments. Continued 
monitoring by DOD and Service FAPs, supplemented by implementation 
support provided by the Penn State University's Clearinghouse for 
Military Family Readiness through the Department's partnership with the 
United States Department of Agriculture, will ensure that the Incident 
Severity Scale accurately reflects the severity of ``met criteria'' 
domestic abuse and child maltreatment cases.
Intimate Partner Physical Injury Risk Assessment Tool
    The Intimate Partner Physical Injury-Risk Assessment Tool (IPPI-
RAT), developed by researchers from Kansas State University and 
Northern Illinois University, is an evidence-based tool used to predict 
and manage the risk of domestic and intimate partner violence with 
physical injury among individuals (both males and females) who have 
already experienced any incident of domestic or intimate partner 
violence, whether or not the initial incident involved physical abuse 
or injury. The IPPI-RAT was developed through extensive research funded 
by the DOD and Service FAPs and has been rolled out for use DOD-wide. 
This tool was designed specifically for use by FAP clinical providers 
as part of the comprehensive clinical assessment completed when an 
incident of domestic or intimate partner violence is reported. The 
IPPI-RAT is military-specific and has been determined to be as accurate 
as the best available civilian-sector instruments using similar risk 
measures. Standardized training on the application of the IPPI-RAT is 
available, and the tool is supplemented by a field-tested user's 
manual.
New Parent Support Program (NPSP)
    The NPSP is a prevention program used across DOD to provide 
intensive, voluntary home visitation and support services to expectant 
and new parents of children from birth to age 3. Families may self-
refer or may be referred by military or civilian service providers for 
voluntary screening, assessment, and services. NPSP services include: 
(1) screening for risk and protective factors associated with child 
abuse and neglect; (2) parent education and support targeted to the 
developmental needs of the infant or young child; (3) promoting 
nurturing and attachment to support the social and emotional 
development of children; (4) strengthening formal and informal social 
support; (5) referrals to concrete services and resources during times 
of need; and (6) building coping skills and strategies to strengthen 
family resilience.
New Parent Support Program Continuous Quality Improvement (CQI) Project
    The NPSP CQI Project is an evaluation of the NPSP across the four 
Services. The evaluation plan was co-developed by the DOD FAP, NPSP 
Program Managers, and research and evaluation scientists at the Penn 
State University's Clearinghouse for Military Family Readiness.
    The objectives of the CQI are to test a common evaluation plan for 
NPSP at four installations, assess both current and potential measures 
for accurately identifying decreases in a family's risk for child 
maltreatment and unhealthy parenting practices, understand how 
variations in program implementation may impact program outcomes, and 
provide home visitors with tools that could help them better identify 
and meet the needs of NPSP families. The NPSP CQI program evaluation 
runs through fiscal year 2018.
Period of PURPLE Crying
    The DOD Period of PURPLE Crying Program is an evidence-based 
prevention program to prevent abusive head trauma in infants related to 
shaking. The program is a delivered in ``3 doses'' through the New 
Parent Support Program and in military medical inpatient post-natal 
departments.
    The National Center on Shaken Baby Syndrome (NCSBS) converted the 
Period of PURPLE Crying shaken baby syndrome prevention program into a 
mobile and web app (PURPLE app) to enable military families to access 
program information about infant crying and the dangers of shaking a 
baby, from any smartphone, tablet, or computer. The NCSBS also 
developed a web-based training platform for military service providers 
to receive training about infant crying, soothing, coping, the dangers 
of shaking a baby, and the process for providing military families with 
the PURPLE app, by which the military service provider can generate 
access codes that permit a military family to activate the PURPLE app 
on up to five devices. All NPSP home visitors are required to complete 
the service provider training, which allows them to teach parents 
enrolled in NPSP about the Period of PURPLE Crying with fidelity and to 
supply PURPLE app access codes to new parents.
Family Foundations
    Family Foundations is a series of participatory classes for 
expectant and new parents. This evidence-based program helps prepare 
couples for parenthood by fostering attitudes and skills related to 
positive family relationships, particularly positive parenting 
teamwork. National Institutes of Health-funded and subsequent research 
has shown Family Foundations to be effective in all targeted domains: 
parenting, couple relations, and parent and child well being. 
Approximately 250 FAP personnel have been trained to offer Family 
Foundations to parents.
National Child Traumatic Stress Network (NCTSN)
    The NCTSN, co-led by experts from the University of California Los 
Angeles (UCLA) and Duke University, is a unique collaboration of 
academic and community-based service centers, whose mission is to raise 
the standard of care and increase access to services for traumatized 
children and their families across the United States. Combining 
knowledge of child development, expertise in the full range of 
childhood traumatic experiences, and attention to cultural 
perspectives, the NCTSN serves as a national resource for developing 
and disseminating evidence-based interventions, trauma-informed 
services, and public and professional education.
    DOD FAP has partnered with the NCTSN. Through this project, NCTSN 
is developing the ``Academy of Child Traumatic Stress'' and an 
interactive website, ``NCTSNAcademy.org,'' to provide FAP and NPSP 
staff with comprehensive training in trauma-informed care and 
continuing education units on childhood traumatic stress and specific 
practices to address the trauma associated with specific types of child 
abuse and neglect. The site offers a unique blend of social and multi-
media activities to enhance staff learning through self-paced events 
and live, interactive webinars.
    Training consists of 3 main courses--Foundational Knowledge, Core 
Curriculum on Child Trauma/Problem-Based Learning, and Trauma-Specific 
Practices. Additionally, supplemental information and resource 
libraries are available to FAP and NPSP providers. An online wellness 
center offers the practitioner opportunities to learn and practice 
self-care activities when working with demanding and complex child and 
family trauma cases. NCTSN will equip FAP and NPSP staff with the most 
informed, effective, cutting-edge tools and resources to support our 
military servicemembers and families.
Collaboration with Federal and External Civilian Agencies
    Servicemembers and their families belong to a unique military 
community, but are also citizens of the larger society. In addition to 
efforts internal to the Department, FAP endeavors to address domestic 
abuse and child abuse and neglect through extensive active engagement 
and collaboration with our federal partners and other civilian agencies 
with experience in addressing similar challenges, including:
    <bullet>  The Department Of Health and Human Services Office on 
Child Abuse and Neglect
    <bullet>  The Department of Veterans Affairs
    <bullet>  The National Domestic Violence Hotline
    <bullet>  The Department of State Family Advocacy Program
    <bullet>  The Department of Justice
    <bullet>  The Federal Interagency Working Group on Violence Against 
Women
    <bullet>  The Federal Interagency Working Group on Child Abuse and 
Neglect
    <bullet>  The Federal Committee on Women and Trauma
Research
    The Department places great importance and significant emphasis on 
developing the best possible understanding of human factor-related 
behaviors, like domestic abuse and child abuse and neglect. Research 
represents a critical component of the Department's comprehensive 
effort to address these complex issues.
    Currently underway are two research projects focused on domestic 
abuse and child maltreatment. The first is a two-part study to identify 
``Military-specific Risk Factors Associated with Child Abuse and 
Neglect,'' in progress at the Uniformed Services University of the 
Health Sciences (USUHS). Part I of the study will compare demographic, 
family, and military experience data associated with active duty 
military families (servicemembers, spouses, and children) who 
experienced one or more ``met criteria'' incidents of child abuse or 
neglect between October 1, 2013 and September 30, 2014, to a propensity 
score-matched sample of active duty military families who had one or 
more dependent children during 2014, but no history of child 
maltreatment. Analysis of these data will allow USUHS to frame a model 
of risk and protective factors for military child abuse and neglect 
that will inform a follow-on comprehensive analysis of data from fiscal 
years 2004 to 2014. Part II of the study will employ a comprehensive 
retrospective examination of demographic and health care data to model 
the course of the military experience and dynamics of families who 
experienced at least one incident of ``met criteria'' child abuse or 
neglect during an 11-year period (October 1, 2003 through September 30, 
2014). The study findings will contribute to the development of a risk 
and protection model that will inform policy and practice approaches to 
preventing child abuse and neglect, above and beyond the best practices 
the Department has already established.
    RAND is conducting a second study on ``Improving Resources to 
Reduce and Remedy Violence and Maltreatment within Military Families''. 
This study has as its goal the identification and assessment of 
military and civilian resources directed toward the response to, and 
reduction of, violence in military families. The study will incorporate 
information pertaining to active duty families who live on a military 
installation, active duty families who live in local civilian 
communities, and families of Reserve and National Guard members who 
live in the civilian community. The information gleaned from this 
study, expected to be completed in by the end of calendar year 2018, 
will result in recommendations for strategies to enhance awareness of, 
and increase access to, resources for military families experiencing 
family violence.
Fatality Reviews
    Family violence fatalities reflect the most serious breakdown in 
family well-being. In an effort to understand and learn from the 
circumstances involved in domestic and child abuse fatalities, the 
Department has directed the Military Departments to establish fatality 
review teams, conduct annual fatality reviews, and provide the 
summarized results of their reviews to the DOD. An annual DOD Fatality 
Review Summit is subsequently convened to review and discuss the 
findings and recommendations of the Military Department fatality review 
teams.
    DOD FAP invites federal partners and experts on child abuse and 
domestic violence fatality reviews from the Department of Health and 
Human Services, the Department of Justice, the National Resource Center 
on Domestic Violence, and the Defense Centers of Excellence--, Violence 
Prevention and Resilience Directorate, to participate in these heart-
wrenching, but necessary Fatality Review Summits. This rich 
collaboration provides information on military and civilian sector 
trends and promotes an exchange of ideas on strategies to improve the 
quality of fatality reviews and identify best practices in the review 
process. Most importantly, the collaboration seeks to identify areas of 
focus that will contribute meaningfully to the reduction and 
elimination of abuse-related fatalities. The Period of PURPLE Crying 
initiative resulted directly from observations generated through the 
fatality review process.
                               conclusion
    The Department of Defense is committed to continuing its efforts to 
seek, develop, and implement processes and practices that provide the 
highest caliber of support for families impacted by domestic abuse and 
child abuse and neglect. Through our Family Advocacy Program, we will 
continue to focus on prevention and rehabilitation, striving always for 
a military community that fosters safe, healthy, and resilient 
relationships. We are acutely aware that there is much more work to be 
done and we pledge our unflagging efforts to effectively preventing and 
responding to domestic abuse and child abuse and neglect in the 
military. We need and welcome the continued interest and support of 
this Subcommittee, and the Congress, in advancing this essential work.
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Tillis. Thank you very much, Ms. Barna.
    Dr. Dodge, thank you for coming up here, first and 
foremost, and your work. I think that your review of the Durham 
experience since 2008 was extraordinary. I mean a reduction of 
over 60 percent, going from a community that was above the 
State average that was itself above the national average and 
doing the work that you have done proves that it works.
    I immediately want to how you pay for it and also how you 
measure the benefits, and I think you have a very good story to 
tell there.
    If you could briefly talk about some of the ways that you 
believe there is a compelling economic positive impact, I would 
like to talk about that, and then we will also make sure that 
our staff follow up because I think what you are doing there 
could serve as a basis for something that we should identify a 
way to pilot, work with the Department, and identify a way to 
have a public-private partnership as you have done in so many 
other places now across the country. But if you could briefly 
talk a bit about the savings. We have the most important thing, 
which is the benefit to the family, but the savings and the 
other positive impacts that I think build a compelling fiscal 
case.
    Dr. Dodge. Thank you, Senator Tillis. Yes.
    If we look merely at the two primary outcomes of reducing 
emergency room visits in the first 2 years of life for 
illnesses and injuries and reducing official child protective 
services investigations for child abuse, we find in Durham that 
we save at least $3 for every dollar that we spend in the 
program in the first 2 years of life. We continue to do these 
economic studies as children get older, and we are doing them 
in our other communities as well. So I think there is a good 
economic case to make.
    Part of the problem is we, of course, cannot in the 
meantime stop serving those already battered children and 
abused children. So there is an investment that needs to be 
made. I think that is the nature of it.
    Second, as far as how do we pay for it. We are in 28 
communities across the Nation, and each community pays for it 
in different ways. In Durham, the county commissioners have 
elected to use tax dollars to pay for one little part of it. 
Philanthropy pays for another part of it. We capture some 
modest Medicaid funding for part of it. And we capture some 
State grants as well. In other communities, we have found that 
private, for-profit health care agencies will pay for it or 
have paid for it in several communities perhaps because they 
think it is a good thing for their clients, their patients, 
perhaps because it is good public relations, but also perhaps 
because they realize it will save them dollars down the road in 
the long run. So I think it is a combination of public funds, 
private funds, and nonprofit, philanthropy.
    In military communities I think it can be a combination of 
the military plus the surrounding community. So I know fairly 
well Fayetteville, Cumberland County in our State of North 
Carolina where we are beginning to interact with Cumberland 
County, and that community could provide some resources but 
also the Army's Fort Bragg could provide some resources for 
those families. So I think there are creative possibilities 
here.
    Senator Tillis. Thank you very much.
    Ms. Barna, probably this is the first time you have heard 
of this particular program, but I would like an opportunity for 
us to maybe talk about it and see if there is some way to 
explore an application on a pilot basis or possibly other 
programs that we can at least possibly make some headway for 
the support of military families.
    Ms. Barna. Absolutely, sir. We would be happy to do it. We 
are familiar with Dr. Dodge's work. We are great admirers of 
it, and we would be very interested in the outcomes of the 
current pilots.
    Senator Tillis. Thank you very much. Senator Gillibrand?
    Senator Gillibrand. Thank you so much, Mr. Chairman. Dr. 
Taft, can you elaborate on the types of barriers researchers 
and clinicians face when trying to start these types of 
programs?
    Dr. Taft. Barriers in starting the program on an 
installation?
    Senator Gillibrand. Correct. Prevention programs for 
military families.
    Dr. Taft. Right. So we actually have a DOD-funded clinical 
trial/implementation study right now at Madigan, Lewis-McChord 
where we are trying to implement our couples-based prevention 
program. And this is a program that is focused on preventing 
violence in couples at risk, so before there is any violence 
going on at all. And we have shown through a CDC trial that it 
is effective. We compared in a clinical trial to support 
groups, and it was more effective than that.
    So we are now attempting to implement this on an 
installation currently. To be honest, up to this point, we have 
been trying get through the military IRB [institutional review 
board] for like 2 years. So that has been our primary barrier 
thus far.
    But I think the most important thing is getting buy-in, and 
our experience has been reaching out to the partners, to the 
family members is probably the most successful approach rather 
than reaching out directly to the servicemembers who do not 
necessarily want to go to couples therapy or any kind of 
conflict prevention kind of program.
    So I think the biggest challenge is reaching directly to 
the partners, finding ways to reach them. When we did our 
clinical trial, we reached them through Strong Bonds retreats, 
through Yellow Ribbon events. Anyplace where we thought we 
could talk to partners directly that is where we would go.
    Senator Gillibrand. Dr. Dodge, I understand that our 
youngest children are at the greatest risk of fatality from 
abuse and neglect. And I remember how difficult it was as a new 
mother, and I cannot imagine what it would be like to go 
through that kind of experience without a strong support 
system.
    So what are the barriers that families seeking help 
encounter when it comes to caring for their children? And are 
there policies and procedures that would reduce these barriers 
to seek help and the stigma of child abuse and neglect that 
would make prevention programs more accessible?
    Dr. Dodge. Yes. Thank you for that question.
    There are barriers that we have learned about from 
interacting with families over time.
    One barrier is the stigma of reaching out for help with 
mental health problems, with financial problems, even with 
child care problems.
    Another barrier is the belief that one should do it alone. 
One of the things we say to mothers in the hospital room after 
giving birth is we congratulate the mother and we welcome the 
baby in the community. We say every parent can be successful, 
but no parent has ever been successful alone. We are successful 
by surrounding ourselves with others. So we try to set up that 
norm in the family's eyes so that they do not feel that they 
have to do it alone.
    There are ways to overcome those barriers. Our approach is 
universal. Every family is offered the opportunity. So there is 
no stigma. So there is no belief that you have to do it alone 
or should even do it alone, but it is universal.
    But of course, we do not want to spend thousands of dollars 
on every family. So we have to have a way to triage and to get 
the resources to the right families at a particular time.
    So there are barriers, but I think we can overcome them 
with a universal public health kind of approach.
    Senator Gillibrand. Thank you.
    Ms. Barna, currently we do not have numbers reflecting the 
estimated prevalence of child abuse and intimate partner 
violence in the military, only the reported cases. Why does the 
Department of Defense not survey military members and their 
dependents to try to establish an estimated rate of prevalence 
so that we have a better idea of the scope of the problem?
    Ms. Barna. Senator Gillibrand, we have heard you, and we 
are in the process of actually incorporating questions about 
domestic violence in our military spouse survey. There are 
questions about domestic violence and abuse that will be 
inserted into our workplace gender relations survey.
    It is always, of course, a challenge for us to endeavor to 
survey children in an effort to ascertain prevalence. Our 
concern is that such a survey would be quite skewed simply 
because our practice is that for children under the age of 18, 
we would certainly require parental consent, and that we likely 
would not receive such consent from households where abuse is 
ongoing. And as well, just the challenge of interviewing and 
soliciting the children's response makes that kind of 
prevalence survey very challenging.
    But we are hopeful that the military spouse survey and 
again the gender workplace relations survey--
    Senator Gillibrand. You could get some of it from the 
spousal survey I suspect.
    The Family Advocacy Program publishes a report each year 
containing the number of the reported allegations of child 
abuse and neglect and intimate partner violence and the number 
of cases that met the criteria of the program's guidance. 
However, in the annual report, there is no data on the outcome 
of such cases in terms of prosecution by civilian or military 
authorities, recidivism rates, or treatment outcomes.
    Can you give us guidance on why Family Advocacy does not 
track and report this data?
    Ms. Barna. Actually I can speak from a couple of 
perspectives there.
    The Family Advocacy Program is focused persistently first, 
foremost, always on the victim. Our primary concern is the 
victim. We have concern for the offender, and certainly we will 
offer treatment to an offender where treatment is suggested and 
the offender will participate. But it is all with a view to 
helping the victim. And so we do not really get involved other 
than as part of the coordinated community response in the law 
enforcement, the legal, and the command response to holding the 
offender accountable.
    We do have great concern that if victims were to regularly 
perceive that our objective is offender accountability, victims 
would not come to us, that they would be hesitant to, as you 
heard today, ruin the careers of people that they care about, 
people with whom they may share a child.
    We also have concerns that commanders who today would 
preventatively refer a servicemember to us say this individual 
needs service would not do it.
    And finally, there are practical concerns. If you saw in my 
statement our discussion of fatality reviews, we complete 
fatality reviews only after the accountability process is done, 
meaning that we are 3 years behind in fatality reviews. So you 
are seeing our fatality reviews of cases where the 
accountability actions have only been completed and it is 3 
years later in time. We do not want to wait 3 years to provide 
you with data about how our victims and, in some cases, how our 
offenders are responding to treatment.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Tillis. Well, thank you all. And, Dr. Campbell, I 
think your point on getting sufficient data is critically 
important for us to instruct us in terms of additional actions 
we need to do here.
    This hearing is not a once-and-done moment. It is a 
process. I think Senator Gillibrand and I are very focused on 
this issue, as evidenced by the fact we held this hearing, but 
what is even more important is the dialogue that follows. So, 
Ms. Barna, we will be following up with the Department and to 
each one of you.
    We will keep the record open through Tuesday of next week. 
We may submit questions to you for the record. If you are able 
to respond, we would appreciate it.
    But more importantly, as you track what we are doing here, 
please make sure you contact my office and the Ranking Member's 
office for any suggestions and improvements that we can make. 
Thank you all.
    And again, Ms. Perry, Ms. McKinley, thank you for your 
courage. We are going to do everything we can to make sure that 
your stories are becoming fewer and fewer until we can get them 
to be none. Thank you so much, and thank you for traveling 
here.
    The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                              talia's law
    1. Senator Gillibrand. Ms. Barna, the National Defense 
Authorization Act for Fiscal Year 2017 contained a provision known as 
``Talia's Law'' requiring any person within the chain of command to 
immediately report suspected child abuse or neglect. That could 
potentially mean personnel from rank of E4 to O10 that will all need to 
be adequately trained on this requirement as well as how to recognize 
the signs of child abuse.
    Ms. Barna, how is DOD monitoring the services' compliance with this 
requesting?
    Ms. Barna. USD P&R issued a memo to all of the Military Departments 
on June 12, 2017 providing notification of the new legislation and 
requiring that DOD and Service-level policies be updated in accordance 
with the new law. DOD Instruction 6400.01 and DOD Manual 6400.01, 
Volume 1 were reissued with a Change 2 to include the statutory 
language on reporting requirements and were both published March 16, 
2018. The Service Family Advocacy Programs (FAP) were informed and 
tasked with the responsibility to monitor compliance. OSD FAP monitors 
compliance with policy through quarterly meetings with the Services. 
Service FAP Managers are scheduled to present at the Quarterly FAP 
Managers' meeting in July 2018 to provide information to OSD FAP on 
their compliance, to include Service-level policy modifications and any 
training plans they may have developed. OSD FAP is reviewing additional 
monitoring processes to include on-site monitoring visits with the 
Services.
    While the Department is required to notify civilian authorities of 
all allegations, civilian Child Protective Services (CPS) staff are not 
required by law to notify FAP if and when they receive reports 
involving military families. Therefore, some incidents may be unknown 
to FAP, even though those incidents involve military families. To 
address this gap, the DOD Defense State Liaison Office is working to 
educate states about the need for state legislation that would require 
civilian CPS agencies to notify FAP when they receive reports of child 
abuse and neglect involving military families.

    2. Senator Gillibrand. Ms. Barna, how is DOD evaluating whether the 
training is adequate and are there any requirements on who presents the 
training?
    Ms. Barna. DOD policy states that qualified Family Advocacy Program 
(FAP) trainers, as defined in accordance with Service FAP headquarters' 
implementing policy and guidance, conduct training on child abuse and 
domestic abuse in the military community. FAP trainers may also assist 
with providing subject matter experts who conduct this training.
    Through the reissuance of FAP policies, effective March 2018, the 
Department has complied with the statute in promulgating regulations to 
require reporting to the Family Advocacy Program. Through its oversight 
function, OSD FAP will represent the Department in monitoring Service 
compliance with the law and associated policies, to include any 
training or public awareness plans the Services develop to support the 
requirement to report suspected child abuse and neglect to the FAP. 
Service FAP Managers are scheduled to present at the Quarterly FAP 
Managers' meeting in July 2018 to provide information on their 
compliance.
                       intimate partner violence
    3. Senator Gillibrand. Ms. Barna, I understand that the majority of 
survivors of intimate partner violence are female. However, as you 
know, boys and men can be survivors of child abuse and intimate partner 
violence as well. I'm concerned about the stigma surrounding this type 
of violence for male servicemembers or partners. Unfortunately, I know 
of one particular instance in which a military investigator actually 
said the following during an investigation of intimate partner 
violence, ``I didn't know a male could be sexually assaulted by a 
female.'' What is the Department of Defense doing to change the culture 
and stigma for male survivors?
    Ms. Barna. The DOD Family Advocacy Program (FAP) recognizes the 
history and persistent potential in both the military and civilian 
community for stigma against male victims of family, and especially 
sexual, violence that may prevent them from reporting and seeking help. 
Currently, data suggest that victims of either gender feel comfortable 
reporting domestic abuse incidents to FAP; in fiscal year 2017, 
approximately one-third of spouse abuse victims (36 percent) and 
intimate partner abuse victims (29 percent) in met-criteria incidents 
of domestic abuse were male. While a direct comparison to the civilian 
population is not available due to the absence of a centralized 
domestic violence reporting mechanism, these statistics represent 
slightly higher numbers than those estimated in the civilian sector 
from sources such as the Centers for Disease Control through their 
National Intimate Partner and Sexual Violence Survey and the National 
Coalition on Domestic Violence.
    To increase awareness of prevalence and unique risk factors in male 
victimization, OSD FAP has funded several literature reviews, to 
include a 2017 review by the University of Minnesota Center for 
Research and Outreach (REACH) which evaluates and identifies strategies 
for engaging males and encouraging reporting, to identify best 
practices for positive outcomes. OSD FAP is using these findings to 
guide policy and to improve and standardize services DOD-wide. The 
Department has also made significant steps to more proactively support 
male victims of domestic abuse, to include a requirement that all 
victim advocates are trained in gender bias, unique considerations, and 
best practices for responding to male victims.
    When abuse is reported, FAP uses clinical assessments that are 
objective to ensure safety of the victim based on circumstances of the 
incident, including separate interviews with both victim and alleged 
offender, as well as reports from external sources such as command, 
medical, law enforcement, and civilian authorities. The installation 
Incident Determination Committee likewise uses objective criteria to 
determine whether the case meets standardized DOD criteria for child 
abuse and neglect or domestic abuse.
    Finally, the Department is very deliberate in its use of diverse 
and gender-neutral images and content in public awareness materials 
related to parenting, healthy intimate relationships, domestic abuse, 
parenting, and reporting options for victims/survivors of domestic 
abuse.
                        family advocacy program
    4. Senator Gillibrand. Ms. Barna, I understand from your testimony 
that the Family Advocacy Program does not track and publish data on the 
outcome of cases in terms of prosecution by civilian or military 
authorities or other administrative action by the command because it 
does not want to chill survivors from utilizing prevention and support 
services from the program. But, there are other entities that collect 
this data that could report on this. Why doesn't DOD compile 
information from the military criminal investigative organizations to 
publish the data without connecting it to the family advocacy program?
    Ms. Barna. The Department is currently working with the Military 
Criminal Investigation Organizations and Components on a review to 
determine what system(s) are currently available that can be modified 
to collect outcome data. This review was started in May 2018, and we 
anticipate a way forward by October. We do know that any modification 
to current systems will require funds that have not been included in 
the fiscal year 2019 budget.

    5. Senator Gillibrand. Ms. Barna, I know that it is part of DOD 
policy to encourage installations to enter into memorandums of 
understanding with local, civilian authorities and agencies to 
encourage information sharing and better response to incidents of 
domestic violence and child abuse. However, it is unclear whether this 
policy is being met. Is DOD regularly evaluating compliance with this 
policy? If so, please describe the results of any such evaluation and 
any efforts to bring the services into full compliance.
    Ms. Barna. Cross-communication and collaboration among military and 
civilian stakeholders is critical to the overall effectiveness of 
efforts to prevent, respond to, and provide services related to 
domestic abuse and child abuse and neglect. Department, Service, and 
installation FAP policies direct efforts to establish reciprocal 
agreements in the civilian community for the purposes of information 
sharing and service delivery. Agreements are executed at the 
installation level, as the Departments and Military Services recognize 
that each community will require a customized approach due to specific 
characteristics of the locality. Thus, the Military Services assume the 
oversight role for facilitating agreements and ensuring compliance with 
DOD and Service-level policy.
    The presence of current and accurate agreements between FAP and 
civilian counterparts, such as child welfare service organizations and 
domestic violence shelters, is a Service-level FAP inspection and/or 
certification item assessed on an annual or triennial basis. OSD FAP 
conducts oversight of adherence to all FAP policy through quarterly in-
person meetings with Service FAP leaders and periodic oversight 
activities.
              domestic violence and traumatic brain injury
    6. Senator Gillibrand. Ms. Barna, we heard from civilian 
researchers and experts that a best practice is to routinely screen and 
evaluate patients for domestic violence and traumatic brain injury. Can 
you please explain what current programs are in place to train medical 
providers, first responders, and other response personnel (i.e. victim 
advocates, law enforcement, prosecutors, etc.) on the signs and 
symptoms of traumatic brain injury and how the presence of such might 
impact the respective services provided to that survivor?
    Ms. Barna. The Department of Defense's (DOD) Traumatic Brain Injury 
Center of Excellence (DVBIC) provides traumatic brain injury (TBI) 
training and education for Military Health System health care 
providers, Active Duty servicemembers, supervisors, unit commanders, 
veterans, and families. DVBIC experts provide training on TBI 
mechanisms, assessment, management, and recovery after mild TBI, also 
known as concussion. Although not specific to domestic violence as a 
cause of injury or designed for law enforcement, prosecutors, etc., 
such trainings cover the causes and effects of TBI (which may include 
TBI caused by domestic violence and sexual assault), prevention, 
screening (including signs and symptoms of TBI), assessment, and 
treatment.
                      dod data collection/surveys
    7. Senator Gillibrand. Ms. Barna, in your testimony, you mentioned 
that you are in the process of incorporating questions regarding 
prevalence of domestic violence in the ``spouse survey'' as well as 
into the workplace and gender relations survey of active duty members 
conducted by the Sexual Assault Prevention and Response Office.
    Can you please explain which spouse survey you are referring to?
    Ms. Barna. The Department anticipates that a general proxy for 
prevalence of domestic abuse behaviors will be available from the 
National Intimate Partner and Sexual Violence Survey (NISVS) in early 
2019, which included both a sample of active duty women and military 
spouses.
    Finally, FAP is currently working with the Department's Office of 
People Analytics to begin the process of leveraging or modifying 
existing Federal or Defense Department surveys to include questions on 
experiences of domestic abuse. This process will rely on developing a 
methodology which aligns with industry standard survey sampling and 
methods and convening a panel of experts to guide adaptation and 
testing of a behaviorally-based measure. The goal of this approach 
would be to ultimately generate a biannual prevalence rate for domestic 
abuse in the future. Due to the reliable sampling and weighting methods 
used, this approach would yield estimates which are generalizable to 
the military spouse population (or population of military members.)

    8. Senator Gillibrand. Ms. Barna, if you intend to ask questions of 
servicemembers and spouses regarding domestic violence, why wouldn't 
you also ask questions in these two surveys about child abuse 
prevalence?
    Ms. Barna. A scientific survey to accurately assess the prevalence 
of child abuse and neglect is not recommended due to concerns that such 
a survey would underestimate the prevalence of abuse and neglect. 
Asking questions to servicemembers and spouses regarding their 
participation in behaviors that constitute child abuse and neglect is 
not likely to yield reliable estimates, as respondents would have a 
significant disincentive to provide this information to the Department. 
The Department has additional concerns with maintaining the 
confidentiality of respondents, should spouses or servicemembers 
indicate they currently (or had previously) engaged in such potentially 
abusive behaviors towards their children, given that there are 
regulations in place that mandate the reporting of abusive behaviors to 
the DOD Family Advocacy Program and Child Protective Services. Such 
responses may trigger Human Subject protection issues and Office of 
People Analytics survey practices that require breaking confidentiality 
with respect to respondents when harm to self or others is indicated.
    Further, similar concerns of underestimated prevalence arise with 
the alternate method of surveying military children about their 
experiences. The majority of victims of child abuse and neglect in 
military families are five years old or younger. Due to inherent 
limitations on surveying children this young, estimates would fail to 
capture rates among this core population, thereby underestimating the 
scope (e.g., if the survey is unable to capture the group most likely 
to experience abuse and neglect, the survey estimates will be lower 
than the true population rate).
    In addition, regulations on the protection of human research 
participants typically require parental consent to survey minors. The 
Department has concerns that requiring parental consent may result in 
systematically lower response rates for those children who have a 
history of abuse or neglect and whose parents may not consent to their 
taking the survey. This would introduce ``response bias'' towards 
children who have not experienced these behaviors, which may further 
skew estimates.

    9. Senator Gillibrand. Ms. Barna, are you working with any outside 
researchers to develop these questions? If so, who?
    Ms. Barna. Family Advocacy Program (FAP) staff have extensive 
research knowledge of this issue area and regularly consult with 
experts and researchers (both within and outside DOD) in the fields of 
domestic abuse and child abuse and neglect. OSD FAP has not yet engaged 
outside researchers in the development of survey questions, but is 
working with survey researchers at the Office of People Analytics (OPA) 
to begin the process of adding a question (or questions) to generate a 
prevalence rate of domestic abuse in the military. OPA staff have 
experience investigating sensitive topics such as sexual harassment, 
sexual assault, and suicide ideation in military populations.
    It is critical that whichever metric or measure is selected has 
been thoroughly pre-tested to ensure respondent comprehension and is 
scored for the highest level of reliability. Therefore, in the interest 
of expediency, the Department is first researching and reviewing 
existing questions/modules which have been used on prior surveys (both 
military and civilian) and validated to accurately estimate prevalence.
                               __________
            Questions Submitted by Senator Claire McCaskill
             tracking and reporting domestic violence cases
    10. Senator McCaskill. Ms. Barna, what steps has DOD taken in the 
past six months to ensure that cases of domestic violence are 
accurately reported to the FBI's National Instant Criminal Background 
Check System (NICS) and that the individual running a background check 
can easily identify that an individual has a domestic violence 
conviction?
    Ms. Barna. The Uniform Code of Military Justice does have a 
separate offense regarding intimate partner violence, Article 128b--
Domestic Violence.

    11. Senator McCaskill. Ms. Barna, the Lautenberg Amendment bans 
access to firearms by people convicted of crimes of domestic violence, 
even misdemeanor crimes. Many states have separate criminal offenses 
for domestic violence. The Uniform Code of Military Justice does not 
have a separate offense regarding intimate partner violence is that 
correct? Has DOD considered any changes to address this issue? If so 
what are they? If not, why not?
    Ms. Barna. Possibly. Since Article 128b's enactment the Department 
is carefully observing its impact on identifying and tracking domestic 
violence cases in the military.

    12. Senator McCaskill. Ms. Barna, do you believe that creating a 
separate domestic violence offense within the UCMJ may resolve some of 
the issues with identifying and tracking domestic violence cases in the 
military?
    Ms. Barna. Possibly. Since Article 128b's enactment the Department 
is carefully observing its impact on identifying and tracking domestic 
violence cases in the military.
                         special victim counsel
    13. Senator McCaskill. Ms. Barna, as you know, the Special Victims 
Counsel program has been popular among survivors of military sexual 
assault. The most recent DOD Annual Report on Sexual Assault in the 
Military reported that 80 percent of survivors who interacted with SVCs 
were satisfied with the service provided to them, more than any other 
victim service provided by the military. In fact I believe that that 
state and local governments while may not be able to replicate such a 
program could definitely learn from it.
    Ms. Barna, what impact would expanding the SVC program to include 
victims of domestic violence have on DOD?
    Ms. Barna. The Department would require additional resourcing and 
end strength and risks a significant reduction in the quality of 
services currently provided. Additionally, if implemented, a longer 
period is needed to train and field additional SVCs.
    Domestic violence offenses consume substantially more resources 
than other violence offenses. This is due in large part to the 
increasingly complex trial and legal assistance issues involved in 
domestic violence cases, such as a history of violence, child custody 
matters, divorce proceedings, victims re-uniting with their attackers, 
victims recanting allegations, victims who rely on their attackers for 
support, and protective orders and violations of protective orders. 
Because this expansion would include a large number of non-sexual 
domestic violence victims, the impact would likely be greater than 
numbers alone might suggest.
    Should a Congressionally required expansion of SVC eligibility 
occur the Military Departments need at least one year to develop, 
train, equip, and field the additional SVCs and support personnel 
necessary to handle the expanded workload.

    14. Senator McCaskill. Ms. Barna, what impact would it have on the 
SVCs representation of sexual assault victims?
    Ms. Barna. The SVC program for each of the Military Departments is 
at near-maximum capability under the current eligibility guidelines, 
expanding eligibility would take the SVC programs beyond acceptable 
caseload levels to provide adequate representation. In total, the SVC 
programs are representing more than 4,000 victims of sex-related 
offenses. The optimal case load for a SVC is 25 cases or fewer, with 30 
cases as the maximum permissible before encountering an unacceptable 
degradation of services. Under current manning, the Military 
Departments are averaging about 27 active cases per SVC right now. 
There is, therefore, little room for expansion without suffering a 
significant degradation in services.
    Currently, each of the Military Departments has a process for 
expanding SVC eligibility on a case-by-case basis. This process allows 
a reasonable expansion of services within resource constraints.

                                 <all>
</pre></body></html>
